App. 1
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR AFTER
JANUARY 1,2007, IS PERMITTED AND IS GOV­
ERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY OR­
DER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION “SUMMARY
ORDER”). A PARTY CITING A SUMMARY OR­
DER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York on the 18th day of December,
two thousand twenty.
Present: ROSEMARY S. POOLER,
RICHARD C. WESLEY,
SUSAN L. CARNEY,
Circuit Judges.

App. 2
ROBERT L. SCHULZ,
Plaintiff-Counter-DefendantAppellant,
19-1253-cv

v.
UNITED STATES OF AMERICA,
Defendant-Counter-ClaimantAppellee}
(Filed Dec. 18, 2020)

Appearing for Appellant: Robert Schulz, pro se,
Queensbury, N.Y.
Appearing for Appellee:

Karen G. Gregory, Tax Divi­
sion, Department of Justice
(Bruce R. Ellisen, Richard
E. Zuckerman, Principal
Deputy Assistant Attorney
General, on the brief)
Antoinette T. Bacon, Acting
United States Attorney for
the Northern District of
New York, Syracuse, N.Y.

Appeal from a judgment of the United States Dis­
trict Court for the Northern District of New York
(Sannes, J.).

1 The Clerk of Court is directed to amend the caption as
above.

App. 3
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Robert Schulz appeals from the March 27, 2019
judgment of the United States District Court for the
Northern District of New York (Sannes, J.) granting
the government summary judgment and imposing a
penalty of $4,430 on Schulz for operating an abusive
tax shelter in violation of 26 U.S.C. § 6700. In 2007, the
district court imposed a permanent injunction on
Schulz and two nonprofit entities of his creation, We
the People Foundation for Constitutional Education,
Inc. and We the People Congress, Inc. (collectively
“WTP”), barring them from distributing documents
designed to convince companies and workers that the
income tax is fraudulent. We assume the parties’ famil­
iarity with the underlying facts, procedural history,
and specification of issues for review.
We review a grant of summary judgment de novo,
construing the evidence in the light most favorable to
the non-moving parties and drawing all reasonable in­
ferences in their favor. See Sotomayor v. City of N.Y.,
713 F.3d 163,164 (2d Cir. 2013). “A dispute regarding
a material fact is genuine if the evidence is such that a
reasonable jury could return a verdict for the nonmov­
ing party.” Redd v. Wright, 597 F.3d 532, 536 (2d Cir.
2010) (internal quotation marks omitted).

App. 4
We affirm for substantially the reasons set out in
the district court’s well-reasoned decision. The district
court properly determined that WTP was an alter ego
of Schulz for liability purposes. Because the issue per­
tains to “the internal affairs of corporations—for profit
or not-for profit—” the question of whether WTP was
an alter ego is decided “in accordance with the law of
the place of incorporation,” in this case New York.
United States u. Funds Held in the Name or for the Ben­
efit ofWetterer, 210 F.3d 96,106 (2d Cir. 2000).
In determining whether a corporation qualifies as
an alter ego, courts consider such factors as “the ab­
sence of the formalities and paraphernalia that are
part and parcel of the corporate existence” such as
“election of directors,” the use of “common office space”
with the alleged dominating person, “the amount of
business discretion” the corporation displayed inde­
pendent of the dominating person, and “the payment
or guarantee of debts of the dominated corporation” by
the dominator. Wm. Passalacqua Builders, Inc. v. Res­
nick Developers S., Inc., 933 F.2d 131, 139 (2d Cir.
1991). Moreover, “the intermingling of corporate and
personal funds,” the “siphoning of corporate funds” by
the alleged dominator, and the “nonfunctioning of
other officers and directors” also point to a corporation
being an alter ego. William Wrigley Jr. Co. v. Waters,
890 F2d 594,600-01 (2d Cir. 1989).

App. 5

•

Schulz argues that the board of directors retained
control over WTP, such that it was not an alter ego. The
record evidence shows, however, that Schulz served as
the president, chief executive officer, and chairman of
WTP, and exercised total control over the composition
and functions of the nominal board of directors. Re­
garding common office space, WTP’s sole physical loca­
tion was Schulz’s home, in which he and his wife were
the sole people managing the corporation. Schulz re­
ported that WTP had no employees, although-his wife
worked as a volunteer. Despite the presence of a board,
Schulz was by all accounts the only person directing
WTP’s affairs and drafting its message; personally
writing and publishing all of its petitions and public
statements and serving as the self-proclaimed “voice of
the organization.”
Moreover, Schulz’s activities with WTP displayed
the same “intermingling of corporate and personal
funds” associated with an alter ego. Wrigley Jr. Co., 890
F.2d at 600. Schulz used his personal credit cards to
pay for WTP’s expenses, and WTP’s willingness to pay
for Schulz’s bills—including his personal legal ex­
penses—shows that “funds [were] put in and taken out
of the corporation for personal rather than corporate
purposes” in the manner indicative of an alter ego.
Wm. Passalacqua, 933 F.2d at 139. Considering the de, gree of Schulz’s involvement in managing and coordi­
nating WTP, his sole control over its message, and the
intermingling of his own money with that of WTP, the
district court correctly granted summary judgment to
the government.

App. 6
We have considered the remainder of Schulz’s
arguments and find them to be without merit. Accord­
ingly, the order of the district court hereby is AF­
FIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[SEAL]

App. 7
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
l:15-cv-01299
(BKS/CFH)

v.
UNITED STATES OF AMERICA,
Defendant.
Appearances:
Plaintiff, pro se:
Robert L. Schulz
Queensbury, NY 12804

For Defendant:
Richard E. Zuckerman
Principal Deputy Assistant Attorney General, Tax Division
Michael R. Pahl
U.S. Department of Justice, Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
MEMORANDUM-DECISION AND ORDER
(Filed Mar. 27, 2019)
I.

INTRODUCTION

Plaintiff pro se Robert L. Schulz initiated this ac­
tion under 26 U.S.C. § 6703(c)(2), alleging that the

App. 8
Internal Revenue Service (the “IRS”) erroneously as­
sessed a penalty of $225,000 against him for promoting
an abusive tax shelter through two nonprofit entities,
We the People Foundation for Constitutional Educa­
tion, Inc. and We the People Congress, Inc. (together
“WTP”), in violation of § 6700 of the Internal Revenue
Code, 26 U.S.C. § 6700. (Dkt. No. 8). Defendant United
States (the “Government”) asserted a counterclaim
against Schulz, seeking a judgment for the unpaid
$224,000 balance of the penalty the IRS assessed.
(Dkt. No. 29, at 11-17). Having previously determined
that, as a matter of law, Schulz is liable for 225 viola­
tions of § 6700, (Dkt. No. 88), and that WTP’s income is
attributable to Schulz, (Dkt. No. 223), all that remains
for determination by the Court is the amount of the
penalty to be assessed: “the amount of gross income
WTP—and by extension, Schulz—derived from ... or­
ganizing and promoting an abusive tax shelter
through distribution of the 225 Blue Folders at issue
in this case,” (Dkt. No. 223, at 16).
Currently before the Court are the parties’ mo­
tions for summary judgment, (Dkt. No. 243, 244), and
their responses thereto, (Dkt. Nos. 249, 250).1 For the
reasons that follow, the parties’ motions are granted in
part and denied in part.

1 Also before the Court is Schulz’s motion to appoint trial
counsel. (Dkt. No. 232). Because there are no issues of fact re­
maining for trial, as discussed below, Schulz’s motion is denied as
moot.

i

App. 9
II.

FACTS
A. Procedural Background

In 2007, United States District Judge Thomas J.
McAvoy granted the Government’s request for an in­
junction against WTP and Schulz, prohibiting them
from further promoting an abusive tax shelter—
known as the “Blue Folder”—in violation of § 6700. See
United States v. Schulz, 529 F. Supp. 2d 341 (N.D.N.Y.
2007) (“Schulz D, aff’d, 517 F.3d 606 (2d Cir. 2008).
Judge McAvoy also ordered Schulz and WTP to pro­
duce “a list identifying... all persons and entities who
have been provided Defendants’ tax preparation mate­
rials, forms, and other materials containing false infor­
mation.” Id. at 358. After Judge McAvoy found Schulz
to be in contempt of the Court’s order, see Schulz /,
2008 WL 2626567, at *4,2008 U.S. Dist. LEXIS 57948,
at *12 (N.D.N.Y. Apr. 28, 2008), Schulz disclosed a list
of 225 individuals “showing all persons to whom [he]
mailed a copy of the WTP Forms” at issue in Schulz I,
(Dkt. No. 190-1, at 51,53-62).
On March 5, 2015, Schulz received a tax assess­
ment penalty from the IRS, dated March 9,2015, in the
amount of $225,000 for promoting the Blue Folders at
issue in Schulz I. (Dkt. No. 197-2, 41). The IRS ar­
rived at that amount using Schulz’s list of 225 individ­
uals to whom WTP had distributed Blue Folders in
2003, (Dkt. No. 244-1, at 2), penalizing the lesser of: (i)
$1,000 per Blue Folder distributed ($225,000); and (ii)
WTP’s income reported to the IRS in 2003 ($485,351),
(Dkt. No. 243-2, 1 7). On November 2, 2015, Schulz

App. 10
initiated this action under 26 U.S.C. § 6703(c)(2), alleg­
ing that the IRS erroneously assessed a penalty of
$225,000 against him for promoting an abusive tax
shelter. (Dkt. No. 8). The Government then asserted a
counterclaim against Schulz, seeking a judgment for
the unpaid $224,000 balance of the penalty the IRS as­
sessed, plus interest. (Dkt. No. 29, at 11-17).
On March 7,2017, this Court granted partial sum­
mary judgment to the Government, giving preclusive
effect to Judge McAvoy’s findings in Schulz I and hold­
ing that Schulz is liable for violating § 6700 by distrib­
uting the 225 Blue Folders. (Dkt. No. 88). On July 12,
2018, this Court concluded that WTP’s total gross in­
come in 2003 was an inappropriate lodestar by which
to measure “gross income ... derived from a particular,
well-defined activity.” (Dkt. No. 223, at 11-12 (quoting
Barrister Assocs. v. United States (In re MDL-731 Tax
Refund LitigJ, 989 F.2d 1290, 1302 (2d Cir. 1993))).
Further, the Court found that WTP was Schultz’s alter
ago and that WTP’s income was attributable to him.
(Id. at 16). The Court noted that “the only issue re­
maining for trial is the amount of gross income WTP—
and by extension, Schulz—derived from the specified
activities used to calculate the penalty amount under
§ 6700, i.e., organizing and promoting an abusive tax
shelter through the distribution of the 225 Blue Fold­
ers at issue in this case.” (Id.).
In a June 25,2018 letter brief, Schulz indicated for
the first time that, of the 225 Blue Folders at issue in
this case, only 103 “copies were mailed in 2003.” (Dkt.
No. 220, at 2; see also Dkt. No. 243-2, 16; Dkt. No. 250,

App. 11
SI 16).2 On July 6,2018, over six months after discovery
had been completed, Schulz informed the Court that
he “recently discovered hundreds of documents,” (Dkt.
No. 222), pertaining to WTP’s income from the promo­
tion of the abusive tax shelter. Notwithstanding
Schulz’s dubious explanation for his belated disclo­
sure,3 and over the Government’s objection to

2 Although Schulz now asserts that he “has never admitted
that he ‘distributed 225 Tax-Termination Packages in 2003
(Dkt. No. 250, S[ 2), the Court notes that the record is replete with
his representations to the contrary, (see, e.g., Dkt. No. 13-1, SI 3
(affirming that, “[i]n 2003,... Schulz mailed 225 copies of a Blue
Folder....”); Dkt. No. 13-9, at 4; Dkt. No. 16-1, SI 5 (“In 2003,
Schulz .. . petitioned the government for redress of griev­
ances. ... He also ... mailed 225 copies to those who requested a
copy and who voluntarily sent the organization up to $20.”); id.
1 20 (summarizing the penalty as “$1,000 for each of the 225 Blue
Folders ... that were mailed to people in 2003”); Dkt. No. 197-2,
SI 29 (calculating total expense of 225 Blue Folders, or $4,500, as
a percentage of WTP’s 2003 gross revenue); Dkt. No. 214, at 1-2
(stating that the “‘abusive tax shelter’ according to Schulz I was
WTP’s distribution in 2003 of225 copies of a Blue Folder”). In any
event, the year in which Schulz actually mailed each folder is im­
material to the Court’s analysis, as discussed infra Part IV.B.l.
3 Schulz states that his wife, who “is not able to competently
testify concerning these matters because of her cognitive impair­
ment,” presented him with “hundreds of documents related to the
issue at hand,” of which Schulz was unaware because they were
in “folders ... set up and maintained by [his wife] years ago.”
(Dkt. No. 233-1, n 3, 7). The Court further notes that the timing
of Schulz’s disclosure is also suspect, as he “discovered” docu­
ments showing proof of income only when confronted—for the
first time—with the need to affirmatively establish that WTP de­
rived less than $225,000 in 2003 from distribution of the 225 Blue
Folders. (See Dkt. No. 216). Indeed, Schulz admits that his earlier
disclosures relating to WTP’s income were intended only to “prove
j »

App. 12
reopening discovery, the Court permitted Schultz to at­
tempt to use the records in this case, and set a schedule
for additional, limited discovery on the issue. (See Text
Minute Entry, July 26, 2018; Dkt. Nos. 234, 237, 240).
The Court then permitted the parties to submit addi­
tional motions for summary judgement addressing
whether, in light of the new documents, there remained
a triable issue of fact as to the amount of gross income
derived from the 225 Blue Folders distributed in viola­
tion of § 6700. (See Dkt. No. 241; October 1, 2018 Tele­
phone Conference). The facts relevant to determining
the instant motions are as follows.
B. Factual Background4
In March 2003, WTP promoted the Blue Folder “by
posting its entire content on WTP’s website,” making it
available “for free downloaded [sic] by any person.”
[he] derived no income directly from” distribution of the Blue
Folders. (Dkt. No. 233-1, f 8).
4 The Court assumes familiarity with the complete proce­
dural and factual history of this case, as set out in Schulz I, as
well as the Court’s previous decisions dated February 11, 2016,
May 6, 2016, March 7, 2017, and July 12, 2018 (Dkt. Nos. 23, 25,
88, 223). Only those facts relevant to the parties’ motions are set
out below and are drawn from the parties’ statements of material
facts (Dkt. Nos. 243-2,244-1), responses thereto (Dkt. Nos. 249-1,
250), as well as docket entries incorporated by reference therein
and the exhibits attached to the parties’ submissions, to the ex­
tent that they would be admissible as evidence. Where facts
stated in a party’s statement of material facts are supported by
testimonial or documentary evidence and denied with only a conclusory statement by the other party, the Court has found such
facts to be true. See N.D.N.Y. L.R. 7.1(a)(3); Fed. R. Civ. P. 56(e).

App. 13
Dkt. No. 250-1, at 10-11). WTP also offered physical
copies of the Blue Folder for a suggested donation of
$20.00 “to cover .. . printing and mailing costs.” (Dkt.
No. 250-1, at 10-11). In 2003, WTP distributed 103
Blue Folders by mail, (Dkt. No. 250, H 19), and received
“voluntary donations” of varying amounts in connec­
tion with all but three, for an average donation of
$18.64 per folder, (Dkt. No. 250, 1 16). WTP received
payments by cash, by check, and through online pay­
ment processing services Paypal and Linkpoint. (Dkt.
No. 250, SI 16). Paypal and Linkpoint “charged WTP a
fee for their services, reducing WTP’s gross revenue to
approximately $19.12” for each $20.00 payment pro­
cessed online. (Dkt. No. 250, at 4 nn. 11-12). Not in­
cluding amounts withheld by Paypal and Linkpoint,
“WTP received $1,920.48 in voluntary donations for
103 copies of the Blue Folder” distributed in 2003. (Dkt.
No. 250, 119; see also Dkt. No. 243-4, at 21-22; Dkt.
No. 244-1, SI 16; Dkt. No. 251, at 10). WTP mailed an
additional 122 Blue Folders between 2004 and 2007.
(Dkt. No. 243-4, at 13-14). Schulz has not submitted
any documentary evidence establishing the amount of
income WTP derived from each.5

5 Schulz has submitted more than 2,000 pages of documen­
tation relating to WTP’s sources of income in 2003 other than the
Blue Folders at issue in this case. (Dkt. Nos. 244-6 to 244-15).
That information, however, is irrelevant to the amount of “gross
income derived (or to be derived),” 26 U.S.C. § 6700, from the 225
Blue Folders Schulz is liable for promoting.

App. 14
III. STANDARD OF REVIEW
Under Federal Rule of Civil Procedure 56(a), sum­
mary judgment may be granted only if all the submis­
sions taken together “show that there is no genuine
issue as to any material fact and that the moving party
is entitled to judgment as a matter of law.” Celotex
Corp. v. Catrett, All U.S. 317, 322 (1986); see also
Anderson v. Liberty Lobby, Inc., All U.S. 242, 247—48
(1986). The moving party bears the initial burden of
demonstrating “the absence of a genuine issue of ma­
terial fact.” Celotex, 477 U.S. at 323. A fact is “material”
if it “might affect the outcome of the suit under the gov­
erning law,” and is genuinely in dispute “if the evidence
is such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson, All U.S. at 248; see
also Jeffreys v. City of New York, 426 F.3d 549, 553 (2d
Cir. 2005) (citing Anderson). The movant may meet this
burden by showing that the nonmoving party has
“fail[ed] to make a showing sufficient to establish the
existence of an element essential to that party’s case,
and on which that party will bear the burden of proof
at trial.” Celotex, All U.S. at 322; see also Selevan v.
N.Y. Thruway Auth., 711 F.3d 253, 256 (2d Cir. 2013)
(summary judgment appropriate where the nonmov­
ing party fails to “come forth with evidence sufficient
to permit a reasonable juror to return a verdict in his
or her favor on an essential element of a claim” (inter­
nal quotation marks omitted)).
If the moving party meets this burden, the non­
moving party must “set out specific facts showing a
genuine issue for trial.” Anderson, All U.S. at 248,250;

App. 15
see also Celotex, 477 U.S. at 323-24; Wright v. Goord,
554 F.3d 255, 266 (2d Cir. 2009). “When ruling on a
summary judgment motion, the district court must
construe the facts in the light most favorable to the
nonmoving party and must resolve all ambiguities and
draw all reasonable inferences against the movant.”
Dallas Aerospace, Inc. v. CIS Air Corp., 352 F.3d 775,
780 (2d Cir. 2003). Still, the nonmoving party “must do
more than simply show that there is some metaphysi­
cal doubt as to the material facts "Matsushita Elec. In­
dus. Co. v. Zenith Radio Corp., 475 U.S. 574,586 (1986),
and cannot rely on “mere speculation or conjecture as
to the true nature of the facts to overcome a motion for
summary judgment.” Knight v. U.S. Fire Ins. Co., 804
F.2d 9, 12 (2d Cir. 1986) (quoting Quarles v. Gen. Mo­
tors Corp., 758 F.2d 839, 840 (2d Cir. 1985)). Further­
more, “[m]ere conclusory allegations or denials cannot
by themselves create a genuine issue of material fact
where none would otherwise exist.” Hicks v. Baines,
593 F.3d 159, 166 (2d Cir. 2010) (internal quotation
marks omitted).
Where a plaintiff proceeds pro se, the Court must
read his or her submissions liberally and interpret
them “to raise the strongest arguments that they sug­
gest.” McPherson v. Coombe, 174 F.3d 276, 280 (2d Cir.
1999) (quoting Burgos v. Hopkins, 14 F.3d 787, 790 (2d
Cir. 1994)). However, a pro se party’s ‘“bald assertion,’
completely unsupported by evidence, is not sufficient
to overcome a motion for summary judgment.” Jordan
v. New York, 773 F. Supp. 2d 255, 268 (N.D.N.Y. 2010)
(citing Carey v. Crescenzi, 923 F.2d 18, 21 (2d Cir.

App. 16
1991)); see also Wagner v. Swarts, 827 F. Supp. 2d 85,
92 (N.D.N.Y. 2011).
IV. DISCUSSION
Schulz argues that: (i) the penalty should be lim­
ited to gross income derived from the 103 Blue Folders
distributed in 2003, or $1,920.48; (ii) the calculation of
WTP’s “gross income” from each folder should exclude
the processing fees charged by the online vendors; and
(iii) WTP was not his alter ego. (Dkt. No. 244, at 3-5).
The Government argues that Schulz’s penalty should
be assessed at $4,500, or $20.00 for each of the 225
Blue Folders distributed, as the amount of income he
“earned—or expected to earn”—without regard to the
year in which the folder was distributed or the trans­
action fees withheld by Paypal and Linkpoint. (Dkt.
No. 243-1, at 7-8).
A. Blue Folders Distributed in 2003
1. Inclusion of Processing Fees in Gross
Income
Schulz argues that processing fees Charged by
PayPal or Linkpoint should not be included in the cal­
culation of WTP’s gross revenue derived from distribu­
tion of the folders. (Dkt. No. 250, 1 16 nn.10—11). The
Government, on the other hand, argues that the fees
should be included because “the penalty is based on
gross income, not income less fees or costs or costs of
goods sold.” (Dkt. No. 249, at 8).

App. 17
Because it is undisputed that WTP and Schulz de­
rived less than $1,000 per Blue Folder, Schulz’s penalty
is properly assessed as “100 percent of the gross in­
come derived (or to be derived) by such person from
such activity.” 26 U.S.C. § 6700. Gross income means
“all income from whatever source derived.” 26 U.S.C.
§ 61(a). “The definition extends broadly to all economic
gains not otherwise exempted,” and a “taxpayer cannot
exclude an economic gain from gross income by assign­
ing the gain in advance to another party.” Comm’r v.
Banks, 543 U.S. 426,433 (2005). Because it “is not nec­
essary that the income be deposited or received so long
as the taxpayer has an unfettered right to receive it,”
“deductible credit card processing fees would reduce
the amount of petitioners’ net... profit or loss”—they
do “not affect ... gross receipts.” Patel v. Comm’r, 96
T.C.M. (CCH) 202 (2008).
Accordingly, the gross income derived from distri­
bution of the Blue Folders is properly calculated with­
out regard to fees charged by Paypal or Linkpoint.
2. Calculation of Penalty
Regarding “the size of the penalty [,] . . . the gov­
ernment [is] entitled to a presumption that its assess­
ment of the penalties [is] correct.” In re MDL-731 Tax
Refund Litig., 989 F.2d at 1303. The Government ar­
gues that, for the 103 Blue Folders distributed in 2003,
the penalty is properly assessed at $20.00 per Blue
Folder. As indicated above, however, Schulz has ad­
duced evidence establishing that WTP derived no

App. 18
income from distribution of three folders, $10.00 from
one folder, and $20.00 from 99 folders. (Dkt. No. 244-1,
at 3). Accordingly, there is no dispute of material fact
as to the gross income derived from the 103 Blue Fold­
ers distributed in 2003, and the penalty is properly as­
sessed at $1,990.00.
B. Blue Folders Distributed After 2003
1. Assessment on an Annualized Basis
Schulz argues that, because “Schulz I was directed
at an activity undertaken by WTP in 2003,” he is only
liable for the amount of gross income derived from the
103 Blue Folders distributed in 2003. (Dkt. No. 250,
1 2). The Government, on the other hand, argues that
a penalty under § 6700 is “computed on a ‘transac­
tional’ basis, not an ‘annual’ basis, based on the total
income the promoter derived from the scheme.” (Dkt.
No. 243-1, at 7).
The Second Circuit has explained that the “Inter­
nal Revenue Code ... does not obligate the IRS to as­
sess Section 6700 penalties only on income actually
earned during discrete taxable periods.” In re MDL731 Tax Refund Litig., 989 F.2d at 1301. The tax year
in which the conduct occurred is irrelevant because
“the assessment of a Section 6700 penalty turns on in­
come earned from specific conduct—the organization
or promotion of an abusive tax shelter—that may occur
at times different from those in which income is actu­
ally realized.” Id. “This is in contrast to other Internal
Revenue Code penalties, which depend on whether,

App. 19
and how often, an individual avoids certain tax obliga­
tions arising in a particular taxable period.” Id.
Here, Schulz’s theory rests entirely on the wording
of this Court’s June 11, 2018 Text Order, which di­
rected the parties to address whether there was as
“material issue of fact as to whether WTP derived more
than $225,000 in gross income in 2003.” (Dkt. No. 216).
Schulz, however, ignores the fact that the issue then
before the Court was whether his penalty should be as­
sessed at $1,000 per folder—using WTP’s 2003 re­
ported “total revenue” of $485,351 as the measure of
the “gross income derived . .. from such activity,” 26
U.S.C. § 6700—or some lesser amount. That issue was
resolved by this Court’s July 12, 2018 decision, which
expressly rejected the Government’s reliance on the
“gross annual income method” for calculating Schulz’s
penalty, and instead concluded that the proper method
is to measure the income derived, or to be derived, from
the “particular, well-defined activity” of “225 distribu­
tions of the Blue Folder.” (Dkt. No. 223, at 11—12).
In sum, this Court has already found that: (i)
Schulz is liable for distributing 225 Blue Folders in vi­
olation of § 6700; and (ii) under that statute, the pen­
alty is properly measured as 100% of the “gross income
derived or to be derived” from each Blue Folder distrib­
uted. Schulz fails to identify anything in either Schulz
I, the law of this case, or other caselaw that limits his
liability to activities undertaken in 2003.6 Accordingly,
6 As discussed above, Schulz’s confusion over the relevant
timeframe is entirely of his own making, as he has repeatedly

App. 20
the Court finds unpersuasive Schulz’s attempt to nar­
row the scope of activities for which he may be penal­
ized to 2003 only.
2. Calculation of Penalty
As discussed above, the Government contends
that the income reasonably expected “to be derived”
from each Blue Folder was $20.00. (See Dkt. No. 243-1,
at 7—8 (quoting In re MDL-731 Tax Refund Litig, 989
F.2d at 1301-02)). Schulz has failed to adduce any evi­
dence regarding the amount of gross income WTP de­
rived from each of the 122 Blue Folders distributed
after 2003. It is undisputed, however, that: (i) WTP re­
quested a payment of $20.00 for each copy of the Blue
Folder mailed; (ii) in 2003, nearly every individual who
requested a Blue Folder paid WTP $20.00; and (iii)
WTP mailed an additional 122 Blue Folders between
2004 and 2007. Accordingly, the Court finds there is no
genuine issue of material fact remaining for trial as to
the amount of gross income WTP reasonably expected
to derive from the additional 122 Blue Folders distrib­
uted after 2003, and the penalty for that activity is
properly assessed at $20.00 for each. The Court there­
fore grants the Government’s motion for summary
judgment to the extent that Schulz’s penalty for dis­
tributing 122 Blue Folders between 2004 and 2007 is
$2,440.00, for a total penalty of $4,430.00.

represented to the IRS and this Court that he distributed 225
folders in 2003. See supra n.2.

App. 21
C. WTP as Schulz’s Alter Ego
Schulz argues that WTP’s income should not be at­
tributed to him for the purposes of determining the
amount of gross income he derived from the 225 Blue
Folders. (See, e.g., Dkt. No. 244, at 4-5). As noted above,
however, this Court has already reached the opposite
conclusion. (Dkt. No. 223). Schulz’s argument is there­
fore barred by the law-of-the-case doctrine, which
“commands that ‘when a court has ruled on an issue,
that decision should generally be adhered to by that
court in subsequent stages in the same case’ unless ‘co­
gent and compelling reasons militate otherwise.
Johnson v. Holder, 564 F.3d 95,99 (2d Cir. 2009) (quot­
ing United States v. Quintieri, 306 F.3d 1217,1225 (2d
Cir. 2002)). Such reasons include “an intervening
change in controlling law, the availability of new evi­
dence, or the need to correct a clear error or prevent
manifest injustice.” Amore v. City of Ithaca, No. 04-cv176, 2008 WL 8928574, at *2, 2008 U.S. Dist. LEXIS
45328, at *4 (N.D.N.Y. June 9,2008) (quoting New York
State Nat’l Org. for Women v. Terry, 961 F.2d 390,39596 (2d Cir. 1992)).
Here, Schulz asserts that three affidavits he re­
cently procured from former WTP board members, in
addition to documents related to WTP’s income in
2003, “reopenU the alter ego issue.” (Dkt. No. 244, at 4;
Dkt. Nos. 244-2, -3, -4, -6 to -15). This evidence, how­
ever, is not newly available; Schulz has provided no
explanation as to why he could not have submitted the
affidavits previously. Furthermore, Schulz acknowl­
edges that documents he recently “discovered” have

App. 22
been in his possession for the entirety of this litigation.
(Dkt. No. 222). The Court finds no basis for re-exami­
nation of its prior decision.7
V.

CONCLUSION
For these reasons, it is hereby

ORDERED that the Government’s motion for
summary judgment (Dkt. No. 243) is GRANTED to
the extent that Schulz’s penalty under 26 U.S.C. § 6700
is properly assessed at $4,430.00, and is DENIED in
all other respects; and it is further
ORDERED that the Clerk is directed to enter
judgment in favor of the Government on its counter­
claim (Dkt. No. 29) against Schulz in the amount of
$4,430.00, plus statutory interest accruing from March
9, 2015, the date of the assessment; and it is further
ORDERED that Schulz’s motion for summary
judgment (Dkt. No. 244) is DENIED; and it further
ORDERED that Schulz’s Amended Complaint
(Dkt. No. 8) is DISMISSED with prejudice; and it is
further
ORDERED that Schulz’s motion to appoint coun­
sel, (Dkt. No. 232), is DENIED as moot; and it is fur­
ther

7 In any event, even were the Court to consider the affidavits,
their content does not change the Court’s analysis and determi­
nation that WTP’s income is attributable to Schulz.

App. 23
ORDERED that the Clerk is directed provide a
copy of this Memorandum-Decision and Order to the
parties in accordance with the Local Rules; and it is
further
ORDERED that the Clerk is respectfully directed
to close this case.
IT IS SO ORDERED.
/s/ Brenda K. Sannes
Brenda K. Sannes
U.S. District Judge
Dated: March 27, 2019
Syracuse, New York

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
JUDGMENT IN A CIVIL CASE
ROBERT L. SCHULZ,
Plaintiff,
vs.
UNITED STATES OF
AMERICA,

CASE NUMBER:
1:15-CV-1299
(BKS/CFH)

Defendant.
Decision by Court. This action came to trial or hear­
ing before the Court. The issues have been tried or
heard and a decision has been rendered.

App. 24
IT IS ORDERED AND ADJUDGED that the De­
fendant’s motion for summary judgment is GRANTED
to the extent that Plaintiff’s penalty under 26 U.S.C.
§ 6700 is properly assessed at $4,430.00 and is DE­
NIED in all other respects. Judgment is entered in fa­
vor of Defendant on its counterclaim against Plaintiff
in the amount of $4,430.00, plus statutory interest ac­
cruing from March 9,2015, the date of the assessment.
Plaintiff’s motion for summary judgment is DENIED
and Plaintiff’s amended complaint is DISMISSED
with prejudice.
All of the above in accordance with the Order of the
Honorable Brenda K. Sannes dated March 27, 2019.
Dated: March 27, 2019
/s/ John Domurad
Clerk of Court
/s/ Renata Hohl
Renata Hohl
Deputy Clerk

[SEAL]

App. 25
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
No. l:15-cv-01299
v.
(BKS/CFH)
UNITED STATES OF AMERICA,
Defendant.

APPEARANCES:
Plaintiff, pro se:
Robert L. Schulz
Queensbury, NY 12804
For Defendant:
Michael R. Pahl
U.S. Department of Justice, Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
MEMORANDUM-DECISION AND ORDER
(Filed Oct. 9, 2019)
Presently before the Court is Plaintiff pro se Robert
Schulz’s motion seeking reconsideration (Dkt. No. 224)
of the Court’s July 12, 2018 Memorandum-Decision
and Order, (Dkt. No. 223), granting in part and denying
in part Defendant’s motion for summary judgment

App. 26
(Dkt. No. 196) and denying Schulz’s motion for sum­
mary judgment, (Dkt. No. 197).1
In general, a motion for reconsideration may only
be granted upon one of three grounds: “(1) an interven­
ing change in law, (2) the availability of evidence not
previously available, and (3) the need to correct a clear
error of law or prevent manifest injustice.” Shannon v.
Verizon. N.Y. Inc., 519 F. Supp. 2d 304, 307 (N.D.N.Y.
2007); see also Virgin Atl. Airways, Ltd. v. Nat’l Media­
tion Bd., 956 F.2d 1245,1255 (2d Cir. 1992) (same) (cit­
ing 18 C. Wright, A. Miller & E. Cooper, Federal
Practice & Procedure § 4478 at 790). “[A] motion to re­
consider should not be granted where the moving party
seeks solely to relitigate an issue already decided.”
Shrader v. CSXTransp., Inc., 70 F.3d 255, 257 (2d Cir.
1995). ‘The standard for reconsideration is strict and
is committed to the discretion of the court.” S.E.C. v.
Wojeski, 752 F. Supp. 2d 220, 223 (N.D.N.Y. 2010) aff’d
sub nom. Smith v. S.E.C., 432 F App’x 10 (2d Cir. 2011).
In his motion, Schulz states that he “does not seek
to present the case under any new theory,” but intends
only to point to “controlling decisions and data that the
court overlooked—matters, in other words, that might
reasonably be expected to alter the conclusion reached
by the court to prevent clear error of law and prevent
manifest injustice.” (Dkt. No. 224-2, at 2). Specifically,
Schulz argues that (i) Agent Gordon “did not get prior
1 The Court has also considered Schulz’s supplemental let­
ters and his reply in support of his motion seeking reconsidera­
tion. (Dkt. Nos. 225, 229, 231).

App. 27
written approval of the penalty determination from his
supervisor,” (id. at 3) and (ii) WTP was not Schulz’s al­
ter ego in 2003, (id. at 7-25).2 In support of these as­
sertions, however, Schulz merely presents the same
arguments the Court expressly addressed in its July
12, 2018 Memorandum-Decision and Order deciding
the parties’ motions for summary judgment, (See Dkt.
No. 223, at 9 n.2,12-16), and elsewhere, (Dkt. No. 188,
at 8).3 As Schulz’s motion seeks only to relitigate issues
2 Schulz also argues that, [assuming arguendo [ ] WTP was
Schulz’s alter ego in respect to the transaction attacked!,] - • •
there is no issue of fact” that the penalty owed is $2,060, which
“the court could as a matter of law impose ... without a trial.”
(Dkt. No. 224-2, at 25). Schulz’s subsequent discovery of docu­
ments which, according to Schulz, establish a gross revenue of “no
more than $1901.36,” (Dkt. No. 222,233-1, at 4), and other devel­
opments, (October 1, 2018 Text Minute Entry), render his argu­
ment moot. Schulz’s pending letter motions, (Dkt. No. 233, 235),
seeking permission to file supplemental exhibits in support of his
motion for summary judgment, (Dkt. No. 197), are also denied as
moot.
3 Schulz here repeats his assertion that the IRS agent as­
signed to his case “did not obtain the written approval of his pen­
alty determination by his supervisor or higher official designated
by the Treasury Secretary before issuing his penalty letter on
November 24, 2014.” (Dkt. No. 224-2, at 4-5). As discussed in
the July 12,2018 Memorandum-Decision and Order, however, ev­
idence in the record demonstrates that the agent’s supervisor did
approve the penalty determination on November 18, 2014. (Dkt.
No. 190-2, at 48). Schulz’s allegation that this evidence is fraudu­
lent is speculative, conclusory, and unsupported any evidence in
the record. (Dkt. No. 224-2, at 4-5). Furthermore, Schulz does not
dispute that the penalty determination was issued on November
24, 2014. (Dkt. No. 90-1, at 11). Schulz failed to raise an issue of
material fact as to whether the agent received “written approval
of the initial penalty determination no later than the date the IRS

App. 28
already decided, he has failed to demonstrate the need
to either correct a clear error of law or prevent mani­
fest injustice.
For these reasons, it is hereby
ORDERED that Plaintiff’s motion for reconsider­
ation (Dkt. No. 224) is DENIED; and it is further
ORDERED that Plaintiff’s letter motions (Dkt.
No. 233,235) seeking permission to file exhibits in sup­
port of his motion for summary judgment (Dkt. No.
197) are DENIED; and it is further
ORDERED that the Clerk of Court serve a copy
of this Memorandum-Decision and Order on the Plain­
tiff in accordance with the Local Rules.
IT IS SO ORDERED.
Dated: October 9, 2018
Syracuse, New York
/s/ Brenda K. Sannes
Brenda K. Sannes
U.S. District Judge

issue [d] the notice of deficiency ... asserting such penalty.” Chai
v. Comm’r of Internal Revenue, 851 F.3d 190, 221 (2d Cir. 2017).

App. 29
APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
l:15-cv-01299
(BKS/CFH)

v.
UNITED STATES,
Defendant.
APPEARANCES:
For Plaintiff:
Robert L. Schulz, pro se
Queensbury, NY 12804

For Defendant:
Michael R. Pahl
U.S. Department of Justice, Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
MEMORANDUM-DECISION AND ORDER
(Filed Jul. 12, 2018)
I.

INTRODUCTION

Plaintiff pro se Robert L. Schulz brings this action
against Defendant United States (the “Government”)
under 26 U.S.C. § 6703(c)(2), alleging that the Internal
Revenue Service (the “IRS”): (i) erroneously assessed a

App. 30
penalty of $225,000 against him for promoting an abu­
sive tax shelter; and (ii) seeking to bar the Government
from retaliating against him. (Dkt. No. 8). On May 20,
2016, the Government asserted a counterclaim against
Schulz, seeking a judgment for the unpaid $224,000
balance of the penalty the IRS assessed. (Dkt. No. 29,
at 11). On March 7, 2017, the Court granted partial
summary judgment to the Government, finding Schulz
liable for promoting an abusive tax shelter under 26
U.S.C. § 6700, “leaving only the issue of the penalty due
... which Schulz may challenge on the basis that lie
received no income from the abusive tax shelter.” (Dkt.
No. 88, at 10). Currently pending before the Court are:
(i) the Government’s motion for summary judgment,
(Dkt. No. 196), which Schulz opposes, (Dkt. No. 213);
and (ii) Schulz’s motion for summary judgment, (Dkt.
No. 197), which the Government opposes, (Dkt. No.
211). On June 11, 2018, the Court directed the parties
to submit additional briefing as to whether We the Peo­
ple (“WTP”), “derived more than $225,000 in gross in­
come in 2003 from the ‘activity’ at issue in this case,
that is, organizing, selling, or participating in the or­
ganization of abusive tax shelters.” (Dkt. No. 216). The
Government and Schulz submitted their letter briefs
on the issue on June 22, 2018 and June 25, 2018, re­
spectively.1 (Dkt. Nos. 219, 220). For the following rea­
sons, the Government’s motion for summary judgment
1 On July 6, 2018, Schulz informed the Court that he “re­
cently discovered hundreds of documents” related to requests for
Blue Folders and communications from donors. (Dkt. No. 222).
This does not alter the Court’s determination that there are ma­
terial issues of fact remaining for trial.

App. 31
is granted in part and denied in part; Schulz’s motion
for summary judgment is denied.
II.

BACKGROUND2
A. WTP’s Operations

Schulz is the founder of two not-for-profit entities
known as We The People for Constitutional Education
and We The People Congress, together known as
“WTP.” (Dkt. No. 197-2, <R 2). Schulz claims that he,
2 The Court assumes familiarity with the procedural and fac­
tual history of this case, as set out in United States v. Schulz, 529
F. Supp. 2d 341 (N.D.N.Y. 2007), aff’d, 517 F.3d 606 (2d Cir.
2008) (“Schulz I”), as well as the Court’s previous decisions dated
February 11, 2016, May 6, 2016, and March 7, 2017, (Dkt. Nos.
23, 25, 88). Only those facts relevant to the parties’ motions are
set out below, and are drawn from the parties’ statements of ma­
terial facts (Dkt. Nos. 196-15,197-2), responses thereto (Dkt. Nos.
211-1, 213-1), and exhibits attached to the parties’ submissions,
to the extent that they would be admissible as evidence. Where
facts stated in a party’s statement of material facts are supported
by testimonial or documentary evidence, and denied with only a
conclusory statement by the other party, the Court has found
such facts to be true. See N.D.N.Y. L.R. 7.1(a)(3); Fed. R. Civ. P.
56(e). Furthermore, Schulz’s response (Dkt. No. 213-1) to the Gov­
ernment’s statement of material facts (Dkt. No. 196-15) denies
and objects to nearly all of the Government’s factual assertions,
primarily on the basis that any activity he performed was not as
an individual, but in his “official capacity as an officer” of WTP,
(see, e.g., Dkt. No. 213-1, ff 1-5, 7, 8,13, 15,17). As explained in
Section IV.B., infra, such objections are irrelevant to the Court’s
analysis. Finally, Schulz has filed a “Reply to United States’ Re­
sponse to Schulz Statement of Material Facts” (Dkt. No. 214),
along with his reply papers (Dkt. No. 214-1). Even if the Local
Rules permitted such a reply, which they do not, see N.D.N.Y. L.R.
7.1, the contents of this submission are immaterial to the disposi­
tion of the pending motions.

!

!

App. 32
through the activities of WTP, has devoted “his life to
helping people understand the history, meaning, effect
and significance of the provisions of the Declaration of
Independence and their State and Federal constitu­
tions and how to hold their public officials accountable
to the rule of law pursuant to the First Amendment’s
Petition Clause.” (Id., *1 4). Schulz has served as WTP’s
Chairman, President, and Chief Executive Officer
since he founded the organization in 1997. (Dkt. No.
196-5, at 2; Dkt. No. 196-12, at 3). Schulz personally
performed the administrative tasks required to estab­
lish and maintain WTP. (Dkt. No. 197-2, W 9-11,1317, 20-21). WTP’s corporate address has always been
the same as Schulz’s home address, and its offices have
always been located in Schulz’s home. (Dkt. No. 196-5,
at 3-5). Schulz, however, has never received rent in ex­
change for providing the space, nor has he taken a de­
duction on his tax returns for donating the space to
WTP. (Id., at 3-4). Other than Schulz’s wife, only
Schulz has an office at WTP. (Dkt. No. 196-12, at 6).
Schulz used WTP funds to defend himself in IRS
actions and litigation, regardless of whether WTP was
a named defendant.3 (Dkt. No. 196-5, at 73). Schulz
paid corporate expenses with personal credit cards,
3 Schulz denies this fact, arguing that “[ojther than the first
case in 1978 and a case in 2004,” these cases “almost always in­
cluded other members and supporters of the organization,” “there
were probably other plaintiffs,” and, in some instances, involved
efforts to quash IRS efforts to obtain WTP records. (Dkt. No. 2131, H 38). Taking judicial notice of the cases that the Government
has identified, (Dkt. No. 196-15,1137 n.49), however, the Court
notes that WTP is a party in none of them.

App. 33
after which “WTP sent payments to American Express
[and Chase] to reimburse Schulz for his WTP related
expenses if WTP had the funds to do so.” (Dkt. No.
1964, at 48-49). “Otherwise[,] the amount was consid­
ered as an unsecured loan from Schulz to WTP.” (Id.).
Schulz estimates that he made more than $100,000 in
unsecured loans, in the form of “unreimbursed ex­
penses,” to WTP. (Dkt. No. 196-12, at 13).
Although Schulz claims that WTP had no employ­
ees,4 (Dkt. No. 196-5, at 5), he acknowledges that WTP
was his “full-time” occupation. (Dkt. No. 213-1, % 14;
Dkt. No. 196-3, at 160). Schulz himself carried out
WTP’s activities: he personally “Petitioned the federal
government” and “distributed copies of that Petition,”
(Dkt. No. 8, *][ 13-14), including by mailing 225 copies
of the petition materials to requesting individuals
across the country, (Dkt. No. 196-15, at U 8). At deposi­
tion, Schulz described his role at WTP as “the voice of
the organization.” (Dkt. No. 196-12, at 11). WTP’s 2003
“Chairman’s Reports,” which are simply posts au­
thored by Schulz and posted to WTP’s website, indicate
that Schulz alone determined WTP’s mission, message,
and strategy. (See, e.g., Dkt. No. 197-3, at 12-160; Dkt.
No. 197-4, at 1-113). Although the WTP organizations
had various board members and officers since its
founding, (Dkt. No. 196-5, at 26, 54, 58; Dkt. No. 197-9,
4 An undated document indicates that WTP’s board passed a
resolution stating that Schulz “shall be compensated at the rate
of $12,000 per calendar year for his services.” (Dkt. No. 196-5, at
55). Schulz disputes, and the record does not indicate, whether he
ultimately received any of the salary due from WTP. (Dkt. No.
213-1, f 25).

App. 34
at 9,69,89), Schulz was the only person constantly af­
filiated with WTP in an official capacity throughout its
existence.
In 2003, the board accepted Schulz’s strategy to
reform the WTP board with a national focus and
granted Schulz “the power to remove and add members
to the Board based solely upon his discretion.” (Dkt.
No. 196-5, at 55-61). In October 2003, explaining that
he had “settled on a reorganization plan for” WTP,
Schulz used this power to remove all but two members
of WTP’s board—himself and Burr Deitz, who also
served as Secretary and Treasurer. (Dkt. No. 196-4, at
113). In January 2004, Schulz and Deitz—the only re­
maining board members—authorized Schulz “to have
WTP continue to pay out-of-pocket expenses related to”
the IRS’s investigation into WTP and Schulz’s viola­
tions of § 6700. (Dkt. No. 196-5, at 73).5 In March 2006,
Schulz and Deitz authorized WTP to “continue paying”
for the litigation costs associated with several cases
without regard to whether WTP was itself a litigant,
but “provided those activities are directly related to
5 The record indicates that Deitz, an electrician by trade with
accounting
experience, was the sole other board member from
no
October 2003 until January 2007, (Dkt. No. 196-5, at 70), when
he resigned and was replaced by Vanessa Astrup as Secretary,
(Dkt. No. 196-12, at 6). Schulz testified that he asked Deitz to re­
sign after Deitz “fell victim to an online scam” and wrote himself
checks for $8,700 from WTFs bank account. (Id.). Although
Schulz testified that he verbally informed the board—which con­
sisted of only himself and Astrup—he did not “think it was appro­
priate” to report the incident to police. (Id. at 6—7). WTP reported
the amount under “loans receivable” on its 2007 federal tax re­
turn. (Dkt. No. 196-3, at 111).

App. 35
and further the objectives” of WTP’s mission. (Dkt. No.
196-7, at 68).
B. The Blue Folder
One of WTP’s goals was to “claim [] and exercisfe]”
what Schulz has described as his “First Amendment
Right to Petition the Government for Redress of Griev­
ances” for the purpose of “obtaining the answers to im­
portant questions by Petitioning the leaders of the
federal government.” (Dkt. No. 8, HH 7,11). To that end,
WTP “repeatedly petitioned Defendant United States
to respond to Petitions for Redress of Grievances re­
lated to alleged violations by the United States of,” in­
ter alia, “the Constitution’s tax clauses (via the direct,
un-apportioned tax on labor).” (Dkt. No. 197-2, H 6).
WTP’s “written Petition for Redress of Grievances re­
garding tax withholding” was packaged in a blue folder
titled “Legal Termination of Tax Withholding for Com­
panies, Workers and Independent Contractors” (the
“Blue Folder”). {Id. H 8). The Blue Folder contained ma­
terials that “encouraged companies, workers and inde­
pendent contractors to submit the content of the Blue
Folder to their corporate lawyers and CPAs for a ‘rig­
orous review’ of its accuracy with the goal of.. . legally
ending tax withholding.” {Id. H 9). WTP distributed
physical copies of the Blue Folder at WTP events and
through the mail; a digital version was available by
download from, the WTP website. {Id. HI 11—13).
Schulz argues that WTP never sold the contents of the
Blue Folder, but only requested a “nominal donation of
$20” from individuals who requested a physical copy to

App. 36
offset costs associated with printing and mailing the
materials.6 (Id. OT 12, 15, 23). It is undisputed that
WTP distributed 225 copies of the Blue Folder to indi­
viduals by mail, “some of whom volunteered to send
$20 to cover the cost of printing and mailing; WTP did
not send invoices to any of these individuals and did
not require any payment or donation to be made prior
to mailing the Blue Folder.” (Id. 1 24).7
WTP reported $485,351 in “total revenue” to the
IRS in 2003. (Dkt. No. 196-3, at 8). Schulz argues that,
during that period, WTP’s “Blue Folder-related activi­
ties took up an insignificant amount of WTP’s time and
resources,” and were “small and unimportant in view
of WTP’s overall activities, total revenues and total ex­
penses.” (Dkt. No. 197-2, f 28). The record indicates
that WTP solicited and received donations in support
of its other efforts to, inter alia, organize and sponsor
a “Give Me Liberty national conference” and to “bring
an action in 2004 against the United States ... for a
declaration of the Rights of People and the obligations
of the government under the last ten words of the First
Amendment—that is, the ‘petition clause.’” (Id., f 30).
6 The Government states that WTP’s website offered the
Blue Folder for sale for $39.95, citing to Schulz I in support of the
factual proposition. (Dkt. No. 196-15, H 7). Schulz disputes that
the Blue Folders were ever “for sale,” and contends that they were
offered for free, with a requested donation of $20. (Dkt. No. 1972, f 24).
7 Altogether, WTP prepared at least “three thousand, five
hundred (3,500) copies of the Blue Folder,” which were “available
for pick up, free of charge and anonymously” during events held
across the United States in 2003. (Dkt. No. 197-2, $ 20).

App. 37
Schulz asserts that, cumulatively calculated, the
“gross revenue of 225 [Blue Folder] donations of $20
would represent .84% of WTP’s [g]ross [r]evenue” as re­
ported in 2003.8 (Id., K 29).
III. STANDARD OF REVIEW
Under Federal Rule of Civil Procedure 56(a), sum­
mary judgment may be granted only if all the submis­
sions taken together “show that there is no genuine
issue as to any material fact and that the moving party
is entitled to judgment as a matter of law.” Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986); see also An­
derson v. Liberty Lobby, Inc., 477 U.S. 242, 247-48
(1986). The moving party bears the initial burden of
demonstrating “the absence of a genuine issue of ma­
terial fact.” Celotex, 477 U.S. at 323. A fact is “material”
if it “might affect the outcome of the suit under the gov­
erning law,” and is genuinely in dispute “if the evidence
is such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson, 477 U.S. at 248; see
also Jeffreys v. City of New York, 426 F.3d 549, 553 (2d
Cir. 2005) (citing Anderson). The movant may meet this
burden by showing that the nonmoving party has
8 The Government objects to Schulz’s calculation on the basis
that “the question of gross income derived from the scheme (as
opposed to gross revenue as stated by Schulz) is a legal conclusion
[and] not a ‘fact’ for summary judgment purposes.” (Dkt. No. 2111, *11 29). Construing Schulz’s statement liberally, however, his ar­
gument that any hypothetical revenue directly derived from do­
nations requested in exchange for each of the 225 Blue Folders
($4,500) comprises a comparatively minor proportion of WTP’s re­
ported gross income ($485,351) is not unfounded.

App. 38
“fail[ed] to make a showing sufficient to establish the
existence of an element essential to that party’s case,
and on which that party will bear the burden of proof
at trial.” Celotex, 477 U.S. at 322; see also Selevan v.
N.Y. Thruway Auth., 711 F.3d 253, 256 (2d Cir. 2013)
(summary judgment appropriate where the non-mov­
ing party fails to “come forth with evidence sufficient
to permit a reasonable juror to return a verdict in his
or her favor on an essential element of a claim” (inter­
nal quotation marks omitted)).
If the moving party meets this burden, the non­
moving party must “set out specific facts showing a
genuine issue for trial.” Anderson, 477 U.S. at 248,250;
see also Celotex, 477 U.S. at 323-24; Wright v. Goord,
554 F.3d 255, 266 (2d Cir. 2009). “When ruling on a
summary judgment motion, the district court must
construe the facts in the light most favorable to the
nonmoving party and must resolve all ambiguities and
draw all reasonable inferences against the movant.”
Dallas Aerospace, Inc. v. CIS Air Corp., 352 F.3d 775,
780 (2d Cir. 2003). Still, the nonmoving party “must do
more than simply show that there is some metaphysi­
cal doubt as to the material facts,” Matsushita Elec. In­
dus. Co. v. Zenith Radio Corp., 475 U.S. 574,586 (1986),
and cannot rely on “mere speculation or conjecture as
to the true nature of the facts to overcome a motion for
summary judgment.” Knight v. U.S. Fire Ins. Co., 804
F.2d 9, 12 (2d Cir. 1986) (quoting Quarles v. Gen. Mo­
tors Corp., 758 F.2d 839, 840 (2d Cir. 1985)). Further­
more, “[m]ere conclusory allegations or denials cannot
by themselves create a genuine issue of material fact

App. 39
where none would otherwise exist.” Hicks v. Baines,
593 F.3d 159, 166 (2d Cir. 2010) (internal quotation
marks omitted).
Where a plaintiff proceeds pro se, the Court must
read his or her submissions liberally and interpret
them “to raise the strongest arguments that they sug­
gest.” McPherson v. Coombe, 174 F.3d 276, 280 (2d Cir.
1999) (quoting Burgos v. Hopkins, 14 F.3d 787, 790 (2d
Cir. 1994)). However, a pro se party’s “‘bald assertion,’
completely unsupported by evidence, is not sufficient
to overcome a motion for summary judgment.” Jordan
v. New York, 773 F. Supp. 2d 255, 268 (N.D.N.Y. 2010)
(citing Carey v. Crescenzi, 923 F.2d 18, 21 (2d Cir.
1991)); see also Wagner v. Smarts, 827 F. Supp. 2d 85,
92 (N.D.N.Y. 2011).
IV. DISCUSSION
A. Calculation of Penalty Under § 6700
The Government assessed penalties against
Schulz pursuant to 26 U.S.C. § 6700 for promoting an
abusive tax shelter. (Dkt. No. 197-2, 41). As the Court
has already ruled that Schulz is liable for promoting
an abusive tax shelter by virtue of WTP’s distribution
of the Blue Folders, (Dkt. No. 88), the only remaining
issue is the propriety of the penalty assessed against
him.9 Section 6700 provides that any person who
9 Schulz also argues that the penalty assessed against him is
invalid because “IRS Agent Gordon did not get written approval
of the initial penalty determination from his supervisor prior to
the date the IRS issued the Notice of Penalty” in violation of 26

App. 40
violates the statue “shall pay, with respect to each ac­
tivity [proscribed by the statute], a penalty equal to
$1,000 or, if the person establishes that it is lesser, 100
percent of the gross income derived (or to be derived)
by such person from such activity.” 26 U.S.C. § 6700.10
U.S.C. § 6751. (Dkt. No. 213, at 6-11). Although the Government
responds that the issue was settled when Schulz failed to raise
the issue before the Court’s March 7, 2017 ruling as to Schulz’s
liability, (Dkt. No. 215, at), it appears that the Form 8278 giving
rise to Schulz’s argument was first disclosed to Schulz on Decem­
ber 4,2017, (Dkt. No. 190). In any event, the record indicates that
an IRS supervisor approved the penalty on November 18, 2014,
(Dkt. No. 190-2, at 48), and that the IRS subsequently issued the
Notice of Penalty on March 9, 2015, (Dkt. No. 13-1, at 6). Accord­
ingly, even were the Court to consider Schulz’s argument here, it
would be rejected.
10 Congress amended § 6700 in 1989, significantly changing
the method by which the IRS calculated penalties for promoting
an abusive tax shelter. The parties do not dispute that the rele­
vant version of the statute was in effect from 1989 to 2004:
Promoting abusive tax shelters, etc.
(a) imposition of penalty. Any person who—
(1) (A) organizes (or assists in the organization
of)—
(i) a partnership or other entity,
(ii) any investment plan or arrangement, or
(iii) any other plan or arrangement, or
(B) participates (directly or indirectly) in the
sale of any interest in an entity or plan or
arrangement referred to in subparagraph
(A), and
(2) makes or furnishes or causes another person to
make or furnish (in connection with such organi­
zation or sale)—
(A) a statement with respect to the allowability
of any deduction or credit, the excludability of any

App. 41
The Government is entitled to a presumption that the
size of the calculated penalty is correct. In re MDL-731
Tax Refund Litig., 989 F.2d 1290, 1303 (2d Cir. 1993).
Thus, a “taxpayer is liable for a $1,000 penalty for each
violation of section 6700 unless the taxpayer can estab­
lish that the amount of gross income derived from the
activity was less than $1,000.” Gardner v. C.I.R., 145
T.C. 161,179 (2015), aff’d sub nom. Gardner v. Comm’r
of Internal Revenue, 704 F. App’x 720 (9th Cir. 2017).
“Accordingly, when the Government establishes that a
defendant sold a certain number of materials, the bur­
den shifts to the defendant to show that the income
derived was less tha[n] $1,000 per transaction.” United
States v. Alexander, No. 08-cv-03760, 2010 WL
1643425, at *7, 2010 U.S. Dist. LEXIS 40108, at *1718 (D.S.C. Apr. 22, 2010), aff’d, 434 F. App’x 246 (4th
income, or the securing of any other tax benefit by
reason of holding an interest in the entity or par­
ticipating in the plan or arrangement which the
person knows or has reason to know is false or
fraudulent as to any material matter, or
(B) a gross valuation overstatement as to any
material matter,
shall pay, with respect to each activity described
in paragraph (1), a penalty equal to the $ 1,000 or,
if the person establishes that it is lesser, 100 per­
cent of the gross income derived (or to be derived)
by such person from such activity. For purposes of
the preceding sentence, activities described in
paragraph (IXA) with respect to each entity or ar­
rangement shall be treated as a separate activity
and participation in each sale described in para­
graph (1)(B) shall be so treated.
26 U.S.C. § 6700 (2000).

App. 42
Cir. 2011) (granting Government's motion for sum­
mary judgment and imposing “per activity” penalty
where taxpayer failed to adduce evidence that he de­
rived less than $1,000 for each tax avoidance package
sold).
The Government calculated Schulz’s penalty by
first determining that the 225 Blue Folders Schulz
distributed by mail constitute the “activities” that vio­
lated § 6700. (See Dkt. No. 215, at 6 (“Here, the trans­
action attacked is Schulz’s organization, promotion,
and distribution of the Tax Termination Packages in
2003.”)). The Government then asserts that the “gross
income” Schulz derived from those activities is
properly considered as the gross revenue that WTP re­
ported to the IRS in 2003, or $485,351. The Govern­
ment therefore concludes that the penalty is correctly
assessed at $225,000, i.e., the lesser of the “per activ­
ity” calculation and WTP’s gross income.11

11 Schulz argues that, because $1,000 “was meant to be a
flat amount,” the ‘IRS improperly calculated the penalty ... by
imposing a monetary amount with regard to each Blue folder.”
(Dkt. No. 197-1, at 9). The cases he cites in support of this propo­
sition are either inapposite or pertain only to the pre-1989 version
of the statute. See Hargrove & Costanza v. United States, No. 06cv-046, 2008 WI, 4133928, at *7, 2008 U.S. Dist. LEXIS 79606,
at * (E.D. Cal. Sept. 4, 2008) (declining to determine validity of
assessment of penalty on motion for summary judgment, but in­
dicating that 1989 amendment to Section 6700 requires a penalty
calculation based on the number of issuances rather than the to­
tal number of individual bonds sold); Emanuel v. United States,
705 F. Supp. 434, 436 (N.D. Ill. 1989) (applying pre-1989 amend­
ment statute).

App. 43
“For purposes of calculating a Section 6700 pen­
alty,” however, “the government is concerned only
with gross income to be derived from a particular, welldefined activity.” In re MDL-731 Tax Refund Litig., 989
F.2d at 1302; see also Gardner, 145 T.C. at 179 ($47,000
penalty calculated by identifying “47 corporations sole
organized by petitioners and correlating] payments
made by the customers” (emphasis added)); Alexander,
2010 WL 1643425, at *7,2010 U.S. Dist. LEXIS 40108,
at *17-18 (penalty of $1,152,000 appropriate where
business record indicated 1,152 transactions and de­
fendant’s wife “burned all other records” of income
from sales of tax shelter). Here, the particular activi­
ties at issue, as defined by the Government, are 225
distributions of the Blue Folder. Viewed in the light
most favorable to Schulz, the evidence that the Blue
Folders were offered for a suggested donation of $20 is
sufficient to raise a question of fact as to whether WTP
received less than $1,000 in gross income from each
Blue Folder it distributed. (Dkt. No. 197-2, H 24; Dkt.
No. 211-1, H 24). Furthermore, because there is evi­
dence in the record indicating that WTP solicited and
received donations in support of a variety of activities
other than its distribution of 225 copies of the Blue
Folder, (see, e.g., Dkt. Nos. 197-3; 197-4), there are ma­
terial issues of fact as to whether WTP’s total gross in­
come—$485,351—constitutes the “gross income
derived” from the specified activities by which the Gov­
ernment calculated the penalty.12 (See Dkt. No. 197-2,
12 Although arising in the context of the “full-payment rule,”
Humphrey v. United States explains that “no matter if a sale

App. 44
at f 28-29,62 (“Defendant has admitted [that] the IRS
made no effort to determine if any copies of the Blue
Folder were sold and what gross income was derived
from the sale(s).”)).
Thus, without evidence correlating the amount of
WTP’s annual gross in 2003 with the amount of gross
income WTP derived from distribution of each of the
225 Blue Folders, there remains a dispute of material
requires a penalty of $1,000, or some lesser amount, that penalty
is always a function of a single sale.” 854 F. Supp. 2d 1301, 1307
(N.D. Ga. 2011). In Humphrey, the plaintiff tax preparer was pe­
nalized the “gross income she received for all of her sales” of tax
shelters, calculated by “totaling the annual gross reflected in [her]
1099-B’s” from sales that year. Id. at 1307. The court concluded
that, while “practical,” this “gross annual income method” im­
properly rendered the penalty indivisible:
Section 6700 clearly requires a per sale method for cal­
culating a penalty: (1) if the taxpayer grossed at least
$1,000 from an individual sale, the penalty is $1,000;
and (2) if the taxpayer can show that she grossed less
than $1,000 from an individual sale, the penalty is the
gross from that individual sale. The statute does not
compel or allow the use of an annual gross income
method. No matter the amount of the penalty or the
income earned from a sale, the relevant quantum is an
individual sale.
Id. at 1308 (citation omitted). Here, the Government has not at­
tempted to demonstrate how WTFs gross income exceeded $1,000
with respect to each of the 225 Blue Folders “sold.” Rather, relying
entirely on its presumption of correctness, the Government
simply asserts that 100% of WTP’s annual gross revenue for 2003
is attributable to distribution of the Blue Folder. The record is
devoid of evidence indicating what proportion of WTP’s annual
revenue, if any, corresponds to the distribution of all 225 Blue
Folders collectively let alone what income may be attributed to
the sale of each Blue Folder individually.

App. 45
fact as to whether the penalty is properly assessed at
$225,000 or some lesser amount.
B. Whether WTP is Schulz’s Alter-Ego
Regardless of whether the penalty is properly as­
sessed as the gross income “derived . . . from such ac­
tivity” or calculated on a “per activity” basis, no penalty
can be assessed against Schulz unless WTP’s income—
as derived from the distribution of the 225 Blue Fold­
ers at issue here—can be imputed to him as an indi­
vidual. The Government argues that it is entitled to
summary judgment because the “undisputed evidence
shows” that WTP functioned as Schulz’s alter-ego at
the time the income was generated, and that, there­
fore, any income generated by WTP can be imputed to
Schulz in his individual capacity. (Id. at 16—23). Schulz,
on the other hand, argues that he is entitled to sum­
mary judgment because the Government “has failed to
show a factual basis .. . against Schulz’s claim that the
penalty should be zero because he derived no income
from the activity.” (Dkt. No. 197-1, at 7).
“Questions relating to the internal affairs of cor­
porations—for profit or not-for-profit—are generally
decided in accordance with the law of the place of in­
corporation.” United States v. Funds Held in the Name
or for the Benefit ofWetterer, 210 F.3d 96, 106 (2d Cir.
2000). The parties do not dispute that the two WTP en­
tities were incorporated in New York. (Dkt. No. 1963,
at 1; Dkt. No. 196-5, at 33). “New York law permits a
court to disregard the corporate form whenever

App. 46
necessary to prevent a fraud or to achieve equity.”
United States v. Cohn, 682 F. Supp. 209, 216 (S;D.N.Y.
1988). "Under New York law, an entity is a taxpayer’s
alter ego ... where the taxpayer exercised control over
the entity at issue, such that the entity has become a
mere instrumentality of the taxpayer, and the tax­
payer used this control to commit a fraud or other
wrong resulting in unjust loss or injury.” Magesty Sec.
Corp. v. IRS, No. 10-cv-0638, 2012 WL 1425100, at *4,
2012 US. Dist. LEXIS 57514, at *12 (S.D.N.Y. Apr. 24,
2012)); see also Morris v. N.Y. State Dep’t of Taxation &
Fin., 82 N.Y.2d 135, 141 (1993) (stating that, in New
York, “piercing the corporate veil requires a showing
that: (1) the owners exercised complete domination of
the corporation in respect to the transaction attacked;
and (2) that such domination was used to commit a
fraud or wrong against the plaintiff which resulted in
plaintiff’s injury”). “The mere claim that the corpora­
tion was completely dominated by the defendants, or
conclusory assertions that the corporation acted as
their ‘alter ego,’ without more, will not suffice to sup­
port the equitable relief of piercing the corporate veil.”
Flushing Plaza Assocs. No. 2 v. Albert, 102 A.D.3d 737,
739 (2d Dep’t 2013).
Furthermore, “in determining whether to pierce
the corporate veil,” New York courts consider multiple
factors including: “the absence of the formalities ...
that are part and parcel of the corporate existence, i.e.,
... election of directors, keeping corporate records and
the like,” “whether funds are put in and taken out of
the corporation for personal rather than corporate

App. 47
purposes,” “overlap in ownership, officers, directors,
and personnel,” “common office space, address and tel­
ephone numbers of corporate entities,” “the amount of
business discretion displayed by the allegedly domi­
nated” entity, and “whether the corporation in question
had property that was used by other of the corpora­
tions as if it were its own.” Weinreich v. Sandhaus, 850
F. Supp. 1169,1178-79 (S.D.N.Y.) (citing Win. Passalacqua Builders, Inc. v. Resnick Developers S., Inc., 933
F.2d 131, 138 (2d Cir. 1991)). Considering all of these
factors in tandem with the significant harm Schulz
sought and inflicted upon the Government, both pre­
vention of fraud and promotion of equity require at­
tributing the gross income WTP derived from
promoting the abusive tax shelters to Schulz person­
ally as WTP’s alter ego.
First, even viewed in the light most favorable to
Schulz, the evidence in the record indicates that
Schulz maintained virtually exclusive control over
WTP, its activities, and its assets. With regard to oper­
ations and finances, it is difficult to distinguish where
Schulz ends and where the organization begins. WTP
was Schulz’s sole occupation, and Schulz was WTP’s
sole animating force. In addition to functioning as the
“voice” of the organization, Schulz alone determined
WTP’s mission, how to pursue that mission through
programming and strategic decisions, and whether
and when to change course. Schulz simultaneously
served as WTP’s President, Chief Executive Officer,
and Chairman of WTP’s Board of Directors. WTP’s only
permanent physical presence was inside Schulz’s own

App. 48
home, where only he and his wife maintained offices.
Schulz was the only person authorized to draw a salary
from WTP. Schulz used WTP funds to pay for his health
insurance, as well as portions of his electric and tele­
phone bills. Schulz used WTP funds for litigation and
other legal expenses, regardless of whether WTP was
a named party. Schulz mixed WTP and personal ex­
penses, paying WTP expenses with his personal credit
cards and using WTP funds directly to make payments
on those cards. Altogether, Schulz acknowledges that
he made more than $100,000 in “unsecured loans” to
WTP. At Schulz’s direction, WTP “loaned” over $8,000
to Burr Deitz after Deitz stole that money from WTP.
Finally, Schulz had the power to add or remove board
members authority to fire board members “on his sole
discretion.” And Schulz exercised that power when he
removed all board members, except one, in 2003.13
Second, as described above, Schulz I already deter­
mined that together, Schulz and WTP promoted an
abusive tax shelter in violation of § 6700, and that the
“gravity of harm” caused by their conduct is “manifest.”
See Schulz I, 529 F. Supp. 2d at 346-53 (explaining
that although “the exact cost of Defendants’ conduct
appears to be unknown,” the estimated cost to the
13 Schulz disputes the relevance of this fact, arguing that he
removed these board members with the intention of replacing
them with a more regionally diverse group. (Dkt. No. 213-1,51 35).
Schulz fails to recognize, however, that it is his intent that is ir­
relevant—the mere fact that he was able to effectively dissolve
the board at his discretion is indicative of the degree of his domin­
ion and control over the entity. See Evseroff, 270 Fed. App’x at 77
(“[T]he critical issue ... is not motive, but control.
).

App. 49
United States Treasury is approximately $4.8 million).
Infliction of such an injury is at the core of Schulz’s
stated mission: enabling “companies, workers, and in­
dependent contractors” to “stop withholding, filing and
paying,” (Dkt. No. 197-3, at 4), a “tax [that] is fraudu­
lent in its origin and illegal in its operation” for the
purpose of “executing] a mass-movement to Cut Gov­
ernment Funding,” (id., at 14).14
The record indicates that Schulz exercised domin­
ion and control over the entity to such a degree that
WTP is more accurately understood as his mere instru­
mentality, and that he used that instrumentality to or­
ganize and promote abusive tax shelters in violation of
§ 6700, causing significant injury to the Government.
Accordingly, there is no issue of material fact as to
whether WTP’s income derived from the distribution of
the Blue Folders is properly imputed to Schulz as his
alter ego. The only issue remaining for trial is the
amount of gross income WTP—and by extension,
Schulz—derived from the specified activities used to
calculate the penalty amount under § 6700, i.e., organ­
izing and promoting an abusive tax shelter through

14 The Court need not further explore the degree to which
courts have repeatedly rejected this and similar arguments. See
Schulz I, 529 F. Supp. 2d at 350 (finding that Schulz “relied on
fringe opinions of known tax protestors whose theories have re­
peatedly been rejected by courts across the country,” and noting
that “[sjeveral of the people on whom Defendants claim to rely
have been convicted of tax crimes”).

App. 50
distribution of the 225 Blue Folders at issue in this
case.16
V.

CONCLUSION
For these reasons, it is hereby

ORDERED that the Government’s motion for
summary judgment (Dkt. No. 196) is GRANTED on
the issue of whether WTP was Schulz’s alter ego,
but is otherwise DENIED; and it is further
ORDERED that Schulz’s motion for summary
judgment (Dkt. No. 197) is DENIED.
IT IS SO ORDERED.
Dated: July 12, 2018
Syracuse, New York
/s/ Brenda K. Sarnies
Brenda K. Sannes
U.S. District Judge

15 Schulz makes an additional claim that, because distribu­
tion of the Blue Folder constitutes protected speech, the penalty
assessed against him is invalid. (Dkt. No. 8, at 18). As the Gov­
ernment notes, this argument was already litigated and rejected
in Schulz 7, 529 F. Supp. 2d at 355-57. Accordingly, the Court
need not further address the issue here.

i

App. 51
APPENDIX E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
v.

l:15-cv-01299 (BKS/CFH)

UNITED STATES
OF AMERICA,
Defendant.
APPEARANCES:
Plaintiff Pro Se
Robert L. Schultz
Queensbury, NY 12804
For the United States:
Michael Richard Pahl
U.S. Department of Justice - Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
MEMORANDUM DECISION AND ORDER
(Filed Aug. 24, 2017)
INTRODUCTION
Plaintiff pro se Robert Schulz appeals a Text Or­
der (Dkt. No. 120) issued by United States Magistrate

App. 52
Judge Christian F. Hummel on June 21, 2017, which
granted in part and denied in part Plaintiff’s request
for the issuance of subpoenas (Dkt. No. 112) and stated
in relevant part: “The Court grants permission to issue
subpoenas for David Gordon, Dorothy Nelson and Mi­
chael Sciame, denying the issuance of subpoena as to
Lois Lerner.” (Dkt. No. 124). The United States op­
poses Schulz’s appeal. (Dkt. No. 131). On July 21,2017,
Schulz requested permission to file a reply (Dkt. No.
133), which the Court granted (Dkt. No. 134), and
Schulz replied on August 14, 2017 (Dkt. No. 144). For
the following reasons, Magistrate Judge Hummers
June 21, 2017 Text Order is affirmed.
PROCEDURAL HISTORY1
On November 2, 2015, Schulz filed a Complaint
against the United States, the Internal Revenue Ser­
vice (“IRS”), and John Koskinen as Commissioner, un­
der 26 U.S.C. § 6703(c)(2), alleging that he received an
erroneous tax assessment penalty from the IRS in the
amount of $225,000 related to his promotion of an abu­
sive tax shelter. (Dkt. No. 1). On January 4, 2016,
Schulz filed an Amended Complaint, further alleging
that the IRS filed a notice of federal tax lien against
his property for the $224,000 unpaid balance of the as­
sessment. (Dkt. No. 8). The only issue remaining in this
case is whether Schulz owes a penalty for the abusive

1 The Court assumes familiarity with the full history de­
tailed in Dkt. Nos. 23, 25,88.

App. 53
tax shelter based on the amount of income, if any, he
derived from it. (See Dkt. No. 88).
On June 12, 2017, Schulz filed a request for the
issuance of subpoenas as to four witnesses: Michael
Sciame, David Gordon, Dorothy Nelson, and Lois Lerner. (Dkt. No. 112). The United States opposed Schulz’s
request for a subpoena as to Lemer, the former director
of the Tax Exempt Organizations Unit of the IRS, on
the basis that “she is a former high-ranking IRS official
with no personal knowledge of the gross income that
Schulz earned from his tax-fraud scheme.” (Dkt. No.
115, p. 2). The United States argued that Schulz failed
to demonstrate any exceptional circumstances to jus­
tify the deposition of a high-ranking government offi­
cial. (Id.). The United States further indicated that the
information Schulz sought “can [be] obtained through
other, less burdensome or intrusive means, namely,
the depositions of the three other IRS agents named
above.” (Id., p. 3).
Schulz filed a letter in response, arguing among
other things that “Lois Lemer had decision making au­
thority for many years—including those which are cen­
tral to this instant case—concern WTP2 and my work.
She is the signer of a critical document that was not
handled properly by the IRS, according to its own rules
and regulations.” (Dkt. No. 117, p. 1). Further, Schulz
stated his belief that Lerner “was directly involved
with strategies and decisions concerning WTP and Bob
2 WTP refers to Schulz’s “We The People” organizations. (See
Dkt. No. 25, pp. 2-3).

App. 54
Schulz.” (Id.). On June 19, 2017, Magistrate Judge
Hummel held a hearing regarding various discovery
matters (Dkt. No. 119), and on June 21, 2017, granted
permission to issue subpoenas for Gordon, Nelson, and
Sciame, but denied the issuance of a subpoena for Lerner. (Dkt. No. 120). Schulz was also permitted to file a
motion to compel discovery by July 7, 2017. (Id.).
Schulz filed the instant appeal on July 5, 2017, and
then on July 7, 2017, he filed a motion to compel dis­
covery. (Dkt. No. 126). That motion did not address the
issue of deposing Lemer.
DISCUSSION
Schulz appeals the portion of Magistrate Judge
Hummel’s June 21, 2017 Text Order denying Schulz’s
request for the issuance of a subpoena as to Lois Lerner. (Dkt. No. 124, p. 1). Schulz asserts that he in­
formed Magistrate Judge Hummel at the June 19,
2017 discovery hearing that “there was significant and
substantial circumstantial evidence demonstrating
that Lerner was part of a politically motivated set­
up of Schulz and his organizations and that Lerner
was directly involved in enforcement actions against
Schulz and his organizations, including but not limited
to her Exempt Organization Division’s lengthy and de­
tailed audit of the organizational and financial activi­
ties of the organizations.” (Id., pp. 1-2). “Schulz argued
his evidence included a principal document that was
signed by Lemer during the audit.” (Id., p. 2). Schulz
further states that “Lemer, Sciame and Gordon were
all directly involved in managing the enforcement

App. 55
actions against Schulz between 2003 and 2008,” and
that he “needs to depose all three, as any one of the
three would have knowledge about Schulz’s earning
from the activity, or lack thereof, not possessed by any
of the other two deponents.” (Id.).
In response, the United States argues that
Schulz’s appeal should be denied because Magistrate
Judge Hummel “has not issued a final determination
of a non-dispositive matter under Local Rule 72.1.”
(Dkt. No. 131, p. 5). Local Rule 72.1 provides that any
party “may file objections to a Magistrate Judge’s de­
termination of a non-dispositive matter.” N.D.N.Y. L.R.
72.1(b). Essentially, the United States contends that
since Schulz did not file a motion to compel the deposi­
tion of Lerner, Magistrate Judge Hummel’s decision to
deny a subpoena for Lerner does not constitute a final
determination of a non-dispositive matter, and there­
fore, Schulz cannot appeal under Local Rule 72.1(b).
(Dkt. No. 131, pp. 6-7). At the discovery hearing, Mag­
istrate Judge Hummel explained the court’s decision
as follows:
There’s no indication on the record before this
Court that Ms. Lerner has any knowledge, in­
formation or anything remotely relevant to
the issues which remain in this litigation. The
only issue in this litigation is the amount of
what gross - what amount if any gross income
. .. did Mr. Schulz derive from the tax scheme
or plan and there’s no indication that Ms. Ler­
ner has any knowledge with respect to those
issues. And as such, Mr. Schulz’s request for a

App. 56
subpoena to be issued to depose Ms. Lemer is
denied.
(See Transcript of Discovery Hearing held on June 19,
2017, at pp. 19-20). The court also discussed a potential
motion by Schulz to compel additional information,
and the June 21, 2017 Text Order permitted Schulz to
file a motion to compel discovery. (Dkt. No. 120).
Assuming without deciding that Magistrate Judge
Hummel’s decision to deny a subpoena for Lerner does
constitute a final determination of a non-dispositive
matter, the Court’s review of a non-dispositive dis­
covery order is limited to determining whether the
order is “clearly erroneous or is contrary to law.” Fed.
R. Civ. P. 72(a); 28 U.S.C. § 636(b)(1)(A). “Under this
highly deferential standard, magistrate judges are ‘af­
forded broad discretion in resolving discovery disputes,
and reversal is appropriate only if that discretion is
abused.’” Storms v. United States, No. 13 Civ. 0811,
2014 WL 3547016, at *4,2014 U.S. Dist. LEXIS 96665,
at *15 (E.D.N.Y. July 16, 2014) (citation omitted).
After careful review of the record, the Court finds
that Magistrate Judge Hummel’s decision to deny a
subpoena for Lemer was neither clearly erroneous nor
contrary to the law.3 As the United States previously
pointed out, the Second Circuit has held that “to de­
pose a high-ranking government official, a party must
demonstrate exceptional circumstances justifying the
deposition—for example, that the official has unique
3 Schulz does not specify the ground on which his appeal is
premised.

App. 57
first-hand knowledge related to the litigated claims or
that the necessary information cannot be obtained
through other, less burdensome or intrusive means.”
Lederman v. New York City Dep’t of Parks & Recrea­
tion, 731 F.3d 199, 203 (2d Cir. 2013). At the discovery
hearing, Schulz made the same bald assertions about
Lemer that he repeats in his appeal, and Magistrate
Judge Hummel found there was no indication that
Lerner had any relevant knowledge or information, let
alone unique first-hand knowledge, as to the narrow
issue of what if any income Schulz derived from pro­
moting an abusive tax shelter. Moreover, then and now,
Schulz has failed to show that the information he seeks
cannot be obtained through other, less burdensome or
intrusive means, such as the depositions of the three
other IRS officials, which Magistrate Judge Hummel
allowed.
In sum, the Court finds that Magistrate Judge
Hummel’s decision was neither clearly erroneous nor
contrary to the law, and that it was well within his dis­
cretion to deny a subpoena for Lemer. See also Moriah
v. Bank of China Ltd., 72 F. Supp. 3d 437,440 (S.D.N.Y.
2014) (quashing subpoena for deposition of former
House Majority Leader Eric Cantor where “Plaintiffs
cannot demonstrate exceptional circumstances that
would allow a deposition of Cantor because they can­
not establish that Cantor “has unique first-hand
knowledge’ related in any manner to this litigation.”)
(quoting Lederman, 731 F.3d at 203).

App. 58
CONCLUSION
For these reasons, it is hereby
ORDERED that the Text Order (Dkt. No. 120) is
AFFIRMED and Schulz’s Appeal (Dkt. No. 124) is DE­
NIED.
IT IS SO ORDERED.
August 24, 2017
Syracuse, New York
/s/ Brenda K. Sannes
Brenda K. Sannes
U.S. District Judge

App. 59
APPENDIX F
U.S. District Court
Northern District of New York—Main Office
(Syracuse) [NextGen CMZECF
Release 1.5 (Revision 1.5.3)] (Albany)
CIVIL DOCKET FOR CASE
#: l:15-cv-01299-BKS-CFH
(Filed Jun. 21, 2017)
Schulz v. United States
Docket No. 120
TEXT ORDER granting in part and denying in part
112 Letter Request to issue subpoenas. The Court
grants permission to issue subpoenas for David Gor­
don, Dorothy Nelson and Michael Sciame, denying
the issuance of subpoena as to Lois Lerner. Plaintiff
is also permitted to file a Motion to Compel Discovery.
Motion to Compel to be filed by 7/7/2017. Defendants
response to such a motion is due 7/28/2017. All Deposi­
tions are to be completed by 7/14/2017. The Plaintiff is
directed to submit amended proposed Subpoenas for
Gordon, Nelson and Sciame, with the deposition date
and place indicated, for the Clerk to issue. SO OR­
DERED. Authorized by Magistrate Judge Christian F.
Hummel on 6/19/2017. (Copy served via regular mail
on 6/21/2017)(tab) (Entered: 06/21/2017)

App. 60
APPENDIX G
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
v.

l:15-cv-01299 (BKS/CFH)

UNITED STATES
OF AMERICA,
Defendant.
APPEARANCES:
Plaintiff Pro Se
Robert L. Schulz
Queensbury, NY 12804
For the United States:
Michael Richard Pahl
U.S. Department of Justice - Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
DECISION AND ORDER
(Filed May 4, 2017)
Presently before the Court are four letter mo­
tions from Plaintiff pro se Robert Schulz (Dkt. Nos.
96-99), relating to: 1) the Court’s March 7, 2017

App. 61
Memorandum-Decision & Order (Dkt. No. 88), which
denied Schulz’s motion for an Order to Show Cause,
granted the Government’s motion for partial summary
judgment, denied Schulz’s motion for summary judg­
ment, and denied Schulz’s motion to re-litigate, and 2)
the Court’s April 14, 2017 Decision & Order (Dkt. No.
95), which denied Schulz’s motion to reconsider the
March 7, 2017 decision. The Court will discuss each of
Schulz’s motions in turn.
First, Schulz requests “reassignment to a jury of
my peers of the adjudication of the question whether
United States v Schulz, et al., 529 F. Supp. 2d 341
(N.D.N.Y. 2007) aff’d United States v. Schulz, 517 F.3d
606 (2d Cir. 2008) (“Schulz I”) was fully, fairly and com­
pletely litigated.” (Dkt. No. 96). Schulz states that
“[s]aid question is currently before the Court on my
motion of March 21, 2017 for reconsideration of the
Court’s Order filed March 7, 2017.” (Id.). Schulz seeks
reassignment under 28 U.S.C. § 144, which states that:
Whenever a party to any proceeding in a dis­
trict court makes and files a timely and suffi­
cient affidavit that the judge before whom the
matter is pending has a personal bias or prej­
udice either against him or in favor of any
adverse party, such judge shall proceed no fur­
ther therein, but another judge shall be as­
signed to hear such proceeding.
The affidavit shall state the facts and the rea­
sons for the belief that bias or prejudice exists,
and shall be filed not less than ten days be­
fore the beginning of the term at which the

App. 62
proceeding is to be heard, or good cause shall
be shown for failure to file it within such time.
A party may file only one such affidavit in any
case. It shall be accompanied by a certificate
of counsel of record stating that it is made in
good faith.
28 U.S.C. § 144. In his supporting affidavit, Schulz as­
serts the following basis for reassignment:
Due to the inherent, unavoidable personaliza­
tion of the “outside influence” of the percep­
tion of consequences adverse to their interests
that would accompany a restoration of the
First Amendment Right to Petition the Gov­
ernment for Redress of Grievances, namely a
significant shift in the ultimate power in the
United States of America from the Govern­
ment of the United States to the People, all
individuals representing the Government of
the United States as the triers of said factual
question would be inherently biased against
Plaintiff Schulz and the restoration of the
First Amendment Right to Petition the Gov­
ernment for Redress of Grievances.
The trier of fact before whom this matter is
pending, and all others similarly situated,
are inherently biased and prejudiced against
Schulz and the restoration of the First Amend­
ment Right to Petition the Government for Re­
dress of Grievances.
(Dkt. No. 96-1, HI 4-5). Schulz goes on to rehash his
motion for reconsideration. (Dkt. No. 92). Schulz con­
cludes, among other things, that “all federal judges

App. 63
would be so inherently biased should the adjudication
of the question be reassigned to one of them.” (Dkt.
No. 96-1, 1 50). However, 28 U.S.C. § 144 does not
permit reassignment to a jury, only another judge, and
Schulz’s allegation that the entire judiciary is biased
against him is not a valid basis for reassignment.
Therefore, Schulz’s motion may be denied for this rea­
son alone.1 Moreover, Schulz’s motion must be denied
as moot, inasmuch as the Court denied Schulz’s motion
for reconsideration on April 14, 2017, the same day he
requested reassignment. (Dkt. No. 96).
Second, Schulz requests that “judgment be set out
in a separate document” for the Court’s March 7, 2017
Memorandum-Decision & Order and the Court’s April
14, 2017 Decision & Order. (Dkt. No. 97). Under Rule
58 of the Federal Rules of Civil Procedure, a party may
“request that judgment be set out in a separate docu­
ment as required by Rule 58(a).” Fed. R. Civ. P. 58(d).
Rule 58(a) states that, with certain exceptions not rel­
evant here, “[e]very judgment and amended judgment
must be set out in a separate document.” Fed. R. Civ. P.
58(a). Further, Rule 54(a) states that “‘judgment’ as
used in these rules includes a decree and any order
from which an appeal lies.” Fed. R. Civ. P. 54(a). In
other words, the judgment must be a final order. Since
the Court’s previous decisions only addressed Schulz’s
1 It is also worth noting that the legal question of whether an
issue in a prior proceeding was fully and fairly litigated for pur­
poses of collateral estoppel must be resolved by the court. See New
York v. Julius Nasso Concrete Corp., 202 F.3d 82, 86 (2d Cir.
2000).

App. 64
liability under 26 U.S.C. § 6700, and not any related
damages, the Court will not enter judgments for these
non-final orders. See Fed. R. Civ. P. 54(b); see also Lib­
erty Mut. Ins. Co. v. Wetzel, 424 U.S. 737, 744 (1976)
(“We turn to consider whether the District Court’s or­
der might have been appealed by petitioner to the
Court of Appeals under any other theory. The order,
viewed apart from its discussion of Rule 54(b), consti­
tutes a grant of partial summary judgment limited to
the issue of petitioner’s liability. Such judgments are
by their terms interlocutory ... and where assessment
of damages or awarding of other relief remains to be
resolved have never been considered to be ‘final’ within
the meaning of 28 U.S.C. § 1291.”).
Third, Schulz requests “an explanation for the
Court’s Decision to pre-maturely deny my 3/21/17 Mo­
tion for Reconsideration.” (Dkt. No. 98). Schulz points
out that a text notice was entered by the Court clerk
on March 23, 2017, directing the Government to file
any response to Schulz’s motion for reconsideration by
April 17,2017, and setting a motion hearing for May 4,
2017. (Docket Entry dated March 23, 2017). The text
notice also stated, however, that the motion “would be
taken on submission of papers, with no oral argument,
unless otherwise directed.” Moreover, the Court en­
tered decision on Schulz’s motion for reconsideration
before the Government’s response date, and without
having heard from the Government in any manner, for
the simple reason that no response was necessary,
since Schulz only repeated past arguments which

App. 65
the Court had previously rejected. (See Dkt. Nos. 23,
88).
Fourth, Schulz seeks a court order pursuant to
Rule 7(b)(1) of the Federal Rules of Civil Procedure,
amending the Court’s April 14,2017 Decision & Order
by: “a. Removing the footnote on page 3 because it is
wholly unfair and misleading, and b. Modifying the
first sentence of the second paragraph on page 2 be­
cause as it is, it is wholly unfair and misleading.” (Dkt.
No. 99). Having reviewed Schulz’s supporting affidavit
(Dkt. No. 99, pp. 2-6), the Court finds no basis to make
the requested modifications.
WHEREFORE, for the foregoing reasons, it is
hereby
ORDERED that Plaintiff’s Motion for Reassign­
ment (Dkt. No. 96) is DENIED; and it is further
ORDERED that Plaintiff’s Motion Requesting
that a Judgment be Entered (Dkt. No. 97) is DENIED;
and it is further
ORDERED that Plaintiff’s Motion for Clarifica­
tion (Dkt. No. 98) is GRANTED, as explained above;
and it is further
ORDERED that Plaintiff’s Motion Requesting
Modification (Dkt. No. 99) of the Court’s April 14,2017
Decision & Order is DENIED; and it is further
ORDERED that the Clerk of the Court serve a
copy of this Decision and Order on the Plaintiff.

App. 66
IT IS SO ORDERED.
May 4, 2017
Syracuse, New York
/s/ Brenda K. Sannes
Brenda K. Sannes
U.S. District Judge

App. 67
APPENDIX H
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
v.

l:15-cv-01299 (BKS-CFH)

UNITED STATES
OF AMERICA,
Defendant.
APPEARANCES:
Plaintiff Pro Se
Robert L. Schultz
Queensbury, NY 12804
For the United States:
Michael Richard Pahl
U.S. Department of Justice - Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
DECISION AND ORDER
(Filed Apr. 14, 2017)
Presently before the Court is a motion from
Plaintiff pro se Robert Schulz (Dkt. No. 92) seeking
reconsideration of the Court’s March 7, 2017

App. 68
Memorandum-Decision & Order (Dkt. No. 88), which
denied Schulz’s motion for an Order to Show Cause,
granted the Government’s motion for partial sum­
mary judgment, denied Schulz’s motion for summary
judgment, and denied Schulz’s motion to re-litigate.
(See Dkt. Nos. 36, 38, 39, 41).
In general, a motion for reconsideration may only
be granted upon one of three grounds: “(1) an interven­
ing change in law, (2) the availability of evidence not
previously available, and (3) the need to correct a clear
error of law or prevent manifest injustice.” Shannon v.
Verizon NY., Inc., 519 F. Supp. 2d 304, 307 (N.D.N.Y.
2007); see also Virgin Atl. Airways, Ltd. v. Nat’l Medi­
ation Bd., 956 F.2d 1245, 1255 (2d Cir. 1992) (same)
(citing 18 C. Wright, A. Miller & E. Cooper, Federal
Practice & Procedure § 4478 at 790). “[A] motion to re­
consider should not be granted where the moving party
seeks solely to relitigate an issue already decided.”
Shrader v. CSXTransp., Inc., 70 F.3d 255, 257 (2d Cir.
1995). “The standard for reconsideration is strict and
is committed to the discretion of the court.” S.E.C. v.
Wojeski, 752 F. Supp. 2d 220,223 (N.D.N.Y. 2010) aff’d
sub nom. Smith v. S.E.C., 432 F. App’x 10 (2d Cir. 2011).
Here, Schulz “seeks only to prevent clear error
of law and prevent manifest injustice.” (Dkt. No. 92-1,
p. 5). Specifically, Schulz argues that: 1) the First
Amendment Petition Clause issue was not fully and
fairly litigated in Schulz I; 2) the parties’ material facts
in genuine dispute were not fully and fairly litigated
in Schulz /; and 3) the Anti-Injunction Act is inappli­
cable. (Id., pp. 6-27). Schulz I refers to a 2008 decision

App. 69
wherein the Government successfully enjoined Schulz
(and two corporate defendants he founded) from pro­
moting an abusive tax shelter pursuant to § 6700 of
the Internal Revenue Code, 26 U.S.C. § 6700. See
United States v. Schulz, 529 F. Supp. 2d 341 (N.D.N.Y.
2007) (McAvoy, J.) aff’d, 517 F.3d 606 (2d Cir. 2008) and
enforcement granted, No. l:07-CV-0352, 2008 WL
2626567, 2008 U.S. Dist. LEXIS 57948 (N.D.N.Y. Apr.
28, 2008).
Since Schulz I determined Schulz’s liability under
§ 6700,1 and this Court has already concluded that the
issue was fully and fairly litigated in that proceeding
and that Schulz may not re-litigate Schulz I in this ac­
tion, Schulz’s first two arguments for reconsideration
are unavailing. (See Dkt. No. 88, pp. 7-10). As to
Schulz’s third argument, the Court twice previously
concluded that the Anti-Injunction Act, 26 U.S.C.
§ 7421, barred Schulz’s requests for a preliminary in­
junction against the Government. (See Dkt. No. 23, pp.
3-9; Dkt. No. 88, pp. 5-6). In sum, Schulz seeks only to
relitigate issues already decided, and he has not shown
the need to correct a clear error of law or prevent man­
ifest injustice.

1 In finding that Schulz violated § 6700, Judge McAvoy con­
cluded, among other things, that [b]ecause Defendants have ac­
tually persuaded others, directly or indirectly, to violate the tax
laws, Defendants words and actions were directed toward such
persuasion, and the unlawful conduct was imminently likely to
occur, the First Amendment does not afford protection.” Schulz I,
529 F. Supp. 2d at 357.

App. 70
WHEREFORE, for the foregoing reasons, it is
hereby
ORDERED that Plaintiffs Motion for Reconsider­
ation (Dkt. No. 92) is DENIED; and it is further
ORDERED that the Clerk of the Court serve a
copy of this Decision and Order on the Plaintiff.
IT IS SO ORDERED.
April 14, 2017
Syracuse, New York
/s/ Brenda K. Sannes
Brenda K. Sannes
U.S. District Judge

App. 71
APPENDIX I
15-1299UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
v.

l:15-cv-01299 (BKS-CFH)

UNITED STATES
OF AMERICA,
Defendant.
APPEARANCES:
Plaintiff Pro Se
Robert L. Schultz
Queensbury, NY 12804
For the United States:
Michael Richard Pahl
U.S. Department of Justice - Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
MEMORANDUM-DECISION AND ORDER
(Filed Mar. 7, 2017)
I.

INTRODUCTION

Plaintiff pro se Robert L. Schulz brings this action
against Defendant United States (“the Government”),

App. 72
under 26 U.S.C. § 6703(c)(2), alleging that he received
an erroneous tax assessment penalty from the Internal
Revenue Service (“IRS”) in the amount of $225,000 re­
lated to his promotion of an abusive tax shelter, and
that the IRS wrongfully filed a notice of federal tax lien
against his property for the $224,000 unpaid balance
of the assessment. (Dkt. No. 8). Several motions are
currently pending before the Court: 1) Schulz’s motion
for an Order to Show Cause requesting partial removal
of the federal tax lien, which the Court construes as a
motion for a preliminary injunction (Dkt. No. 36); 2)
the Government’s motion for partial summary judg­
ment (Dkt. No. 38); 3) Schulz’s motion for summary
judgment; (Dkt. No. 39); and 4) Schulz’s motion to “re­
litigate” a decision in a related case (detailed below).
(Dkt. No. 41).
II.

PROCEDURAL HISTORY

In 2007, the Government brought a civil action
against Schulz seeking to enjoin him (and two corpo­
rate defendants he founded) from promoting an abu­
sive tax shelter pursuant to § 6700 of the Internal
Revenue Code, 26 U.S.C. § 6700. United States v.
Schulz, 529 F. Supp. 2d 341 (N.D.N.Y. 2007) aff’d, 517
F.3d 606 (2d Cir. 2008) and enforcement granted, No.
l:07-CV-0352, 2008 WL 2626567, 2008 U.S. Dist.
LEXIS 57948 (N.D.N.Y. Apr. 28,2008) (“Schulz /”). The
action related to Schulz’s distribution of a “Tax Termi­
nation Package” (also known as the “Blue Folder”) in
2003 to help individuals to stop withholding, paying,
and filing federal taxes. Id. United States District

App. 73
Judge Thomas J. McAvoy found that Schulz was pro­
moting an abusive tax shelter, and enjoined him from
further doing so. Id.
On March 9, 2015, Schulz received a tax assess­
ment penalty from the IRS in the amount of $225,000
for promoting the abusive tax shelter at issue in Schulz
I. (Dkt. No. 13-1, p. 6). Pursuant to § 6700, the IRS cal­
culated the penalty by multiplying the number of Tax
Termination Packages that Schulz mailed to individu­
als in 2003 by $1,000.1 (Dkt. No. 15-2,11 3-5). On April
6, 2015, Schulz appealed the penalty to the IRS, argu­
ing that he was not subject to any statutory penalty
under § 6700(a)(2)(B) because he did not receive any
income from the alleged tax shelter. (Dkt. No. 13-1,
11 8-9). Schulz also paid $1,000 towards the penalty as
part of the appeal and requested a refund. (M, 1 8). On
November 2, 2015, "having received no word from the
IRS regarding its resolution” of his appeal and refund,
Schulz commenced this action to determine his tax
penalty liability pursuant to § 6703(c)(2). {Id., 112).
On November 24,2015, the IRS filed a notice of federal
tax lien against Schulz’s property for the $224,000 un­
paid balance of the penalty (Dkt. No. 13-1, pp. 24-27),
which Schulz objected to in the Amended Complaint he
filed on January 4, 2016. (Dkt. No. 8).
1 Under § 6700, any person who promotes an abusive tax
shelter “shall pay, with respect to each activity described in par­
agraph (1), a penalty equal to the $1,000 or, if the person estab­
lishes that it is lesser, 100 percent of the gross income derived
(or to be derived) by such person from such activity.” 26 U.S.C.
§ 6700(a).

App. 74
In January 2016, Schulz moved for a preliminary
injunction to prohibit the Government “from engaging
in any lien or levy collection activity” against him and
to remove the notice of federal tax lien. (Dkt. Nos. 9,
13). In a Memorandum-Decision & Order dated Febru­
ary 11, 2016, the Court denied Schulz’s request for a
preliminary injunction on the grounds that it was
barred as a matter of law by the Anti-Injunction Act,
26 U.S.C. § 7421. (Dkt. No. 23).
Meanwhile, the Government filed a partial motion
to dismiss the Amended Complaint (Dkt. No. 11),
which Schulz opposed. (Dkt. No. 16). Schulz also crossmoved for summary judgment on his claim related to
the tax penalty assessment. (Id.). On April 12, 2016,
Schulz filed an Order to Show Cause, again seeking the
removal of the federal tax lien, and also to expedite de­
termination of his cross-motion for summary judg­
ment. (Dkt. No. 24).
In a Memorandum-Decision & Order dated May 6,
2016, the Court granted the Government’s partial mo­
tion to dismiss, and denied Schulz’s cross-motion for
summary judgment and Order to Show Cause. (Dkt.
No. 25). The Court denied Schulz’s cross-motion for
summary judgment as premature, “without prejudice
to renew at the close of discovery.” (Id., p. 13). The
Court denied Schulz’s Order to Show Cause, referring
back to the same reasons stated in the Court’s previous
Memorandum-Decision & Order dated February 11,
2016. (Id., p. 14).

App. 75

(

On May 20, 2016, the Government answered the
Amended Complaint and asserted a counterclaim
against Schulz, seeking “to reduce to judgment penal­
ties assessed under 26 U.S.C. § 6700 against Schulz for
his participation in the organization, promotion and
sale of the so-called ‘Tax Termination Package’ in 2003,
which falsely and fraudulently claimed to enable par­
ticipants who followed its instructions to stop paying
federal employment and income taxes.” (Dkt. No. 29, p.
11). The Government asserted that “Schulz is collater­
ally estopped from relitigating the Schulz I court’s de­
cision . . . and is legally bound by the ruling that he
engaged in penalty conduct by virtue of his distribu­
tion of the Tax Termination Package,” and that “Schulz
is liable to the United States for the unpaid balance of
the assessment described in .. . this counterclaim, in
the amount of $224,000 plus interest.” (Id., p. 17).
On July 6, 2016, Schulz filed his pending motion
for a preliminary injunction (Dkt. No. 36), which the
Government opposed. (Dkt. No. 37). On July 22, 2016,
the Government filed the pending motion for partial
summary judgment (Dkt. No. 38), which Schulz op­
posed. (Dkt. No. 50). On July 22, 2016, Schulz filed his
own motion for summary judgment (Dkt. No. 39),
which the Government opposed. (Dkt. No. 47). Finally,
on July 25, 2016, Schulz filed his motion to re-litigate
(Dkt. No. 41), which the Government opposed. (Dkt.
No. 48).

App. 76
III. FACTUAL BACKGROUND
The Court assumes familiarity with the factual
background in this case, as set forth in Schulz I, as well
as the Court’s previous decisions dated February 11,
2016 and May 6, 2016. (Dkt. Nos. 23, 25).
IV. SCHULZ’S MOTION FOR A PRELIMINARY
INJUNCTION
Schulz seeks an “an order for partial removal of
the Federal Tax Lien - that is, that part covering two
vacant parcels of his real property representing a
small fraction of the assessed value of Schulz’s overall
land holdings.” (Dkt. No. 36-5, p. 7). Schulz argues that
“[r]emoval of the two parcels from the Lien will provide
Schulz with the opportunity to sell those parcels and
thus put an end to the ongoing, irreparable injury he is
experiencing due to the loss of his Sixth Amendment
Right to counsel.” (Id.). Schulz further contends that
“removal of the two parcels from the Lien will not ad­
versely affect the Government’s security interest in
Schulz’s property. The value of the remaining seven
parcels is 3.2 times that needed to enable Schulz to sat­
isfy the full tax assessment penalty pending a final de­
termination.” (Id.).
In response, the Government argues that Schulz’s
motion “is time-barred because it is an untimely mo­
tion for reconsideration,” and moreover, “the relief that
Schulz seeks is barred by the Anti-Injunction Act.”
(Dkt. No. 37, pp. 7-8). The Court agrees on both counts.
Schulz previously sought removal of the federal tax

App. 77
lien in two separate motions (Dkt. Nos. 9,13,24), which
the Court denied. (Dkt. Nos. 23, 25). Although Schulz
now only seeks partial removal of the federal tax lien,
the motion essentially constitutes one for reconsidera­
tion of the Court’s previous judgments, and is untimely
under Local Rule 7.1(g). See N.D.N.Y. L.R. 7.1(g) (re­
quiring motions for reconsideration to be filed no later
than fourteen days after entry of the challenged judg­
ment).
Moreover, Schulz’s motion fails on the merits, for
the same reasons explained in the Court’s previous de­
cisions. Specifically, Schulz’s motion is barred as a mat­
ter of law by the Anti-Injunction Act, which states that
“no suit for the purpose of restraining the assessment
or collection of any tax shall be maintained in any
court by any person, whether or not such person is the
person against whom such tax was assessed.” 26 U.S.C.
§ 7421(a). Although there are certain exceptions to this
general rule, the Court previously found that they do
not apply here. (Dkt. No. 23, pp. 4-8). Schulz argues
that partial removal of the federal tax lien would allow
the Government to retain a security interest in his
property to potentially satisfy the tax assessment.
(Dkt. No. 36-5, p. 7). However, Schulz does not point to
any authority for an exception to the rule against any
restraint on the assessment or collection of taxes, per­
mitting partial removal of the federal tax lien, and the
Court is aware of none.
Schulz also argues that the judicially created ex­
ception to the Anti-Injunction Act applies in this case
because “equity jurisdiction exists” and “under no

App. 78
circumstances can the Government ultimately pre­
vail.” (Dkt. No. 36-5, pp. 8-15). The Court has already
squarely rejected this argument and will not belabor it
again here. (Dkt. No. 23, pp. 5-8). The Court will only
add that, to the extent Schulz contends that imposition
of the federal tax lien violates his Sixth Amendment
right to counsel and thereby causes him irreparable
harm (since he cannot liquidate the property in order
to pay for an attorney) (Dkt. No. 36-5, pp. 8-10), “it is
well-settled that, except when faced with the prospect
of imprisonment, a litigant has no legal right to coun­
sel in civil cases.” Guggenheim Capital, LLC v. Birnbaum, 722 F.3d 444, 453 (2d Cir. 2013).2
Accordingly, Schulz’s motion for a preliminary in­
junction must be denied, for the same reasons stated
in the Court’s previous decisions. (Dkt. No. 23,25).
V.

THE GOVERNMENT’S MOTION FOR PAR­
TIAL SUMMARY JUDGMENT & SCHULZ’S
MOTION TO RE-LITIGATE

The Government’s motion for partial summary
judgment and Schulz’s motion to relitigate both center
on what effect, if any, the decision in Schulz I should
have on this case. The Government argues that it is
entitled to partial summary judgment because “the
doctrine of collateral estoppel bars the relitigation here
2 Although Plaintiff cites the recent Supreme Court decision
in Luis v. United States, 136 S. Ct. 1083, 1099 (2016), that case
involved a criminal defendant’s right to counsel, and thus is inap­
posite.

App. 79
of Schulz’s liability under § 6700,” which was previ­
ously established in Schulz I. (Dkt. No. 38-1, p. 3). In
response, Schulz argues that “the doctrine of collateral
estoppel is no bar to re-litigation of Schulz I.” (Dkt. No.
50-3, pp. 5-11). In his motion to re-litigate, Schulz ex­
plicitly asks for a complete do-over of Schulz I. (Dkt.
No. 41). The gist of Schulz’s argument for purposes of
both motions is that he did not get a full and fair op­
portunity to litigate the issues in Schulz I. Thus, the
Court must decide whether collateral estoppel applies
here.
“Issue preclusion, or collateral estoppel, which ap­
plies not to claims or to causes of action as a whole but
rather to issues, bars litigation of an issue when ‘(1)
the identical issue was raised in a previous proceeding;
(2) the issue was actually litigated and decided in the
previous proceeding; (3) the party had a full and fair
opportunity to litigate the issue; and (4) the resolution
of the issue was necessary to support a valid and final
judgment on the merits.’”Proctor v. LeClaire, 715 F.3d
402, 411 (2d Cir. 2013) (quoting Ball v. A.O. Smith
Corp., 451 F.3d 66, 69 (2d Cir. 2006)). “The burden of
showing that the issues are identical and were neces­
sarily decided in the prior action rests with the party
seeking to apply issue preclusion,” whereas “the bur­
den of showing that the prior action did not afford a
full and fair opportunity to litigate the issues rests
with . .. the party opposing the application of issue
preclusion.” Kulak v. City of New York, 88 F.3d 63, 72
(2d Cir. 1996).

App. 80
The Government argues that “the issue of Schulz’s
liability under § 6700 was the identical issue raised in
Schulz I” (Dkt. No. 38-1, p. 7). In that case, Judge
McAvoy addressed the issues of: 1) whether Schulz en­
gaged in conduct subject to penalty under § 6700; and
2) whether injunctive relief was appropriate to prevent
recurrence of such conduct. Schulz, 529 F. Supp. 2d at
346. The first issue is also a predicate part of this case,
since Schulz now challenges the imposition of the pen­
alty, which the Government seeks to collect. (Dkt. Nos.
8, 29). Schulz argues, however, that the conduct at is­
sue in Schulz I “was not then and never has been con­
duct subject to penalty under Section 6700 because
Section 6700 exempts conduct from penalty where the
record shows 100 percent of the income derived (or to
be derived) from ‘the conduct’ amounts to zero ($0.00),
and where the record shows the Blue Folder has not
and was never intended to be sold, and was always in­
tended to be distributed free of charge, and neither
Schulz nor WTP3 derived any income from the Con­
duct.” (Dkt. No. 50-3, p. 6). But this argument goes to
the separate issue of whether (and how much) Schulz
profited from the abusive tax shelter. Schulz I did not
reach that issue, since the Government sought only to
enjoin Schulz’s conduct. Judge McAvoy found that
Schulz’s conduct violated § 6700, and this same thresh­
old issue must be decided in this case before a penalty
can be imposed.
3 WTP refers to the two corporate entities founded by Schulz,
which were also sued in Schulz I and enjoined from promoting an
abusive tax shelter. See Schulz, 529 F. Supp. 2d at 345.

App. 81
Next, the Government argues that the issue of
Schulz’s liability under § 6700 was actually litigated
and decided in Schulz I. (Dkt. No. 38-1, p. 8). Schulz
disputes this argument, (Dkt. No. 50-3, p. 5), but in
finding a violation of § 6700, Judge McAvoy addressed
all the elements of the statute and cited supporting ev­
idence. Schulz, 529 F. Supp. 2d at 346-52. The Govern­
ment also argues that “resolution of Schulz’s conduct
under § 6700 was necessary to support a final judg­
ment on the merits in Schulz 7.” (Dkt. No. 38-1, p. 9).
As stated above, Judge McAvoy’s finding that Schulz
violated § 6700 was the underlying basis for the in­
junction to enjoin such conduct. Thus, resolution of the
issue of Schulz’s liability was necessary to support the
injunction under § 7408.
Schulz mainly argues that Schulz I was not fully
and fairly litigated, because the “Court hastily granted
the United States’ motion for summary judgment un­
der 26 U.S.C. Section 7408 without determining if
Schulz’s conduct was liable for penalty under Section
6700.” (Dkt. No. 50-3, p. 3). Schulz complains that
Judge McAvoy held no hearing “on any of the dozens
of material facts that were in genuine dispute.” (Id 5
p. 10). As the party opposing issue preclusion, Schulz
bears the burden of showing “that the prior action did
not afford a full and fair opportunity to litigate the is­
sues.” Kulak, 88 F.3d at 72. He has not met that burden
here. Rather, the record shows that after Schulz “sub­
mitted numerous materials outside of the pleadings in
support of [his] motion to dismiss” in Schulz I, the
United States cross-moved for summary judgment,

App. 82
and Schulz “had an opportunity to reply to the crossmotion.” Schulz, 529 F. Supp. 2d at 357 n.12. In find­
ing that Schulz violated § 6700, Judge McAvoy cited
evidence including Schulz’s declaration, responsive
statement of facts, and numerous exhibits. The court
decided the motion based on the undisputed evi­
dence—no evidentiary hearing was required. Thereaf­
ter, Schulz appealed the decision to the Second Circuit,
arguing, inter alia, that his “actions were not violative
of 26 U.S.C. §§ 6700 or 6701.” United States v. Schulz,
517 F.3d 606, 607 (2d Cir. 2008). The Circuit affirmed,
finding Schulz’s arguments to be “without merit.” Id.
Schulz even appealed to the United States Supreme
Court, but his petition for a writ of certiorari was de­
nied. Schulz v. United States, 555 U.S. 946 (2008).
In sum, the record shows that Schulz received a
full and fair opportunity in Schulz I to litigate the is­
sue of his liability under § 6700. Thus, Judge McAvoy’s
determination that Schulz violated § 6700 by promot­
ing an abusive tax shelter is entitled to preclusive ef­
fect in this case. As a result, the Government is entitled
to summary judgment on the issue of Schulz’s liability
under § 6700, leaving only the issue of the penalty due
(which Schulz may challenge on the basis that he re­
ceived no income from the abusive tax shelter). See
Gardner v. C.I.R., 145 T.C. 161,177 (Tax 2015) (apply­
ing collateral estoppel as to plaintiffs’ liability for
§ 6700 penalties based on earlier injunction against
abusive tax shelter, where “the District Court neces­
sarily determined that they engaged in conduct subject

App. 83
to the section 6700 penalty”). For the same reasons,
Schulz’s motion to re-litigate Schulz 1 must be denied.
VL SCHULZ’S MOTION FOR SUMMARY JUDG­
MENT
Schulz seeks summary judgment on his claim
challenging the tax penalty assessment, arguing that
the undisputed evidence shows that he received no in­
come from the abusive tax shelter, and therefore, the
penalty should be zero. (Dkt. No. 39-2). In response, the
Government argues that Schulz’s “second motion for
summary judgment should be denied because it defies
the Court’s prior order and because it is premature un­
der Rule 56(d).” (Dkt. No. 47, p. 7). Schulz previously
filed an almost identical motion for summary judg­
ment, (Dkt. No. 16), which the Court denied as pre­
mature, “without prejudice to renew at the close of
discovery.” (Dkt. N 25, p. 13) (emphasis added). Discov­
ery is still ongoing in this matter. (See Dkt. Nos. 86,87).
Accordingly, Schulz’s motion is still premature, and
must be denied once more, for the reasons explained in
the Court’s May 6,2016 decision. Once again, Schulz is
reminded that should he renew his motion, after dis­
covery is complete, he must comply with Local Rule
7.1(a)(3).

App. 84
vn. CONCLUSION
It is therefore
ORDERED that Schulz’s motion for an Order to
Show Cause (Dkt. No. 36) is DENIED; and it is further
ORDERED that the Government’s motion for par­
tial summary judgment (Dkt. No. 38) is GRANTED;
and it is further
ORDERED that Judge McAvoy’s determination
in Schulz I that Schulz violated § 6700 by promoting
an abusive tax shelter is entitled to preclusive effect in
this case; and it is further
ORDERED that Schulz’s motion for summary
judgment (Dkt. No. 39) is DENIED; and it is further
ORDERED that Schulz’s motion to re-litigate
(Dkt. No. 41) is DENIED; and it is further
ORDERED that the Clerk provide a copy of this
Memorandum-Decision and Order to the parties.
IT IS SO ORDERED.
March 7,2017
Syracuse, New York
/s/ Brenda K. Sannes
Brenda K. Sannes
U.S. District Judge

App. 85
APPENDIX J
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
v.
UNITED STATES, INTERNAL
REVENUE SERVICE, JOHN
KOSKINEN, Commissioner,

l:15-cv-01299
(BKS/CFH)

Defendants.
APPEARANCES:
Plaintiff Pro Se
Robert L. Schulz
Queensbury, NY 12804
For Defendant United States:
Gregory S. Seador
U.S. Department of Justice - Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
MEMORANDUM-DECISION AND ORDER
(Filed May 6, 2016)
I.

INTRODUCTION

On November 2, 2015, Plaintiff Robert Schulz,
acting pro se, filed a Complaint against Defendants

App. 86
United States, the Internal Revenue Service (“IRS),
and John Koskinen as Commissioner, under 26 U.S.C.
§ 6703(c)(2), alleging that he received an erroneous tax
assessment penalty from the IRS in the amount of
$225,000 related to his promotion of an abusive tax
shelter. (Dkt. No. 1). On January 4, 2016, Schulz filed
an Amended Complaint, further alleging that, on No­
vember 24, 2015, the IRS filed a notice of federal tax
lien against his property for the $224,000 unpaid bal­
ance of the assessment. (Dkt. No. 8).1 On January 4,
2016, Schulz also moved for a preliminary injunction
to stay the enforcement of the tax assessment penalty
and remove the federal tax lien (Dkt. Nos. 9,13), which
the Court denied in a Memorandum-Decision & Order
dated February 11, 2016. (Dkt. No. 23). The United
States has now made a partial motion to dismiss, seek­
ing to dismiss or strike what it refers to as “Count C”
of the Amended Complaint,2 and seeking to dismiss
the IRS and IRS Commissioner John Koskinen as
defendants. (Dkt. No. 11). Schulz opposed the United
1 Although the United States contends that the Amended
Complaint is untimely (Dkt. No. 11-1, p. 4 n.l), a party may
amend its pleading once as a matter of course within 21 days after
service of a motion under Rule 12(b). Fed. R. Civ. P. 15(a)(1)(B).
Here, the Amended Complaint was timely filed on January 4,
2016, the same day the United States filed its motion to dismiss.
(See Dkt. Nos. 8,11).
2 Schultz’s allegation regarding the statute of limitations
and laches is in a paragraph within the first cause of action under
the heading “C. Statute of Limitations and/or Laches Prevents
Imposition of the Penalty.” For ease of reference, and consistency
with the United States’ motion, the Court refers to this as “Count
C.”

App. 87
States’ motion and cross-moved for summary judg­
ment. (Dkt. No. 16). On April 12, 2016, Schulz filed an
Order to Show Cause, again seeking the removal of the
federal tax lien, and also to expedite determination of
his cross-motion for summary judgment. (Dkt. No. 24).
For the reasons that follow, the United States’ par­
tial motion to dismiss is granted, Schulz’s cross-motion
for summary judgment is denied, and the Order to
Show Cause is denied.
II.

FACTS3

In 2003, in his official capacity as Chairman of We
the People Foundation for Constitutional Education,
Inc., Schulz petitioned the federal government “for Re­
dress of Grievances regarding the legality of the gov­
ernment’s practice of forcing employers to withhold
taxes from paychecks before those taxes were due and
owing” (the “Petition”). (Dkt. No. 8, *113). Schulz had
founded We The People Foundation for Constitutional
Education, Inc., and We The People Congress, Inc., “for
the purpose of helping all citizens to become better in­
formed about their Rights under their State and Fed­
eral Constitutions and the laws pursuant thereto.” (Id.,
f 10). Schulz distributed copies of the Petition to
3 The following facts are taken from the Amended Complaint
and, unless otherwise indicated, are assumed to be true for the
purposes of this decision. Faber v. Metro. Life Ins. Co., 648 F.3d
98, 104 (2d Cir. 2011). As discussed infra, the Court concludes
that Schulz’s cross-motion for summary judgment is premature
under Rule 56(d) of the Federal Rules of Civil Procedure, and thus
does not set forth the undisputed facts in this case.

App. 88
workers and company officials: it was placed on the or­
ganizations’ website where it could be downloaded for
free; 3,500 copies were placed in “Blue Folders” and
given out for free at public meetings; and 225 copies
were mailed to individuals, “whether or not they vol­
unteered to cover the Organization’s cost of preparing
and mailing each copy of the Petition, estimated to be
$20.” (Id., 11 14). In response to the Petition, the IRS
launched an investigation and summoned Schulz’s
2003 books as well as those of the two organizations.
(Id., H 15). Schulz farther alleges that, in 2006, the IRS
conducted an audit of both organizations and received
records including income and expense records and
bank statements for 2003. (Id., H 18). Schulz alleges
that the audit “demonstrated Schulz had not received
any income from the organizations.” (Id.).
In 2007, the IRS sued Schulz and the two organi­
zations for distributing the Blue Folders in 2003, “an
activity the IRS equated to the promotion of an abusive
tax shelter.” (Id., H 19). Schulz alleges that “the IRS did
not request a financial penalty and the District Court
did not include a financial penalty in its August 2007
decision that granted IRS’s motion for summary judg­
ment against the two organizations and Schulz, who
was pro se.” (Id.). Schulz alleges that, “[m]ore than
seven years later, in November of 2014, notwithstand­
ing the Court’s prior decision and Schulz’s lack of in­
come from the described activity, IRS Agent David
Gordon wrote a letter to Schulz saying he had made a
determination that Schulz, in his individual capacity,
should be penalized $225,000, $1,000 for each of the

App. 89
225 copies of the Blue Folder which were mailed to peo­
ple iii 2003.” (Id., H 20). Schulz alleges that the tax pen­
alty he received from the IRS was in error because “a
financial penalty cannot be imposed on a person found
to have promoted an abusive tax shelter in violation of
Section 6700, if the gross income derived (or to be de­
rived) by the promoter from the forbidden activity was
zero.” (Id., 1 2). Finally, Schulz alleges that the tax pen­
alty is barred by the statute of limitations and the doc­
trine of laches. (Id., K 71).
III. THE 2007 CASE
In 2007, the United States brought an action
against Schulz seeking to enjoin him, and the two or­
ganizations he founded, from promoting an abusive
tax shelter pursuant to § 6700 of the Internal Revenue
Code, 26 U.S.C.A. § 6700. United States v. Schulz, 529
F. Supp. 2d 341 (N.D.N.Y. 2007) aff’d, 517 F.3d 606 (2d
Cir. 2008), enforcement granted, No. l:07-CV-0352,
2008 WL 2626567, 2008 U.S. Dist. LEXIS 57948
(N.D.N.Y. Apr. 28, 2008). The action related to Schulz’s
distribution of the Petition, also known as the “Tax Ter­
mination Package,” in 2003 to help individuals to stop
withholding, paying, and filing federal taxes. Schulz,
529 F. Supp. 2d at 345. United States District Judge
Thomas J. McAvoy found that Schulz was promoting
an abusive tax shelter, and enjoined him from further
doing so.4 Id. at 357. Judge McAvoy noted that
4 To obtain an injunction, the government had to prove the
following five elements:

App. 90
“ [a] 1though there are some questions of fact concerning
whether Defendants sold their materials,” the United
States did not have to make such a showing to obtain
an injunction, because Defendants “clearly ‘organized’
the materials for presentation.” Id. at 348. Judge
McAvoy further noted: “The evidence in the record is
that Defendants provided the program materials and
gave seminars for free. The evidence also demonstrates
that Defendants used the materials to solicit donations
to the organizations and to encourage people to join
their organization for a fee.” Id. at 348 n.3.5
(1) the defendants organized or sold, or participated in
the organization or sale of, an entity, plan, or arrange­
ment; (2) they made or caused to be made, false or
fraudulent statements concerning the tax benefits to be
derived from the entity, plan, or arrangement; (3) they
knew or had reason to know that the statements were
false or fraudulent; (4) the false or fraudulent state­
ments pertained to a material matter; and (5) an in­
junction is necessary to prevent recurrence of this
conduct.
Schulz, 529 F. Supp. 2d at 346.
5 Judge McAvoy also highlighted a previous case involving
Schulz, where it was noted that:
Robert Schulz is the self proclaimed founder and Chair­
man of the We The People Foundation for Constitu­
tional Education (We The People Foundation). Schulz
has not filed an income tax return since the year 2000.
The Internal Revenue Service (IRS) is currently inves­
tigating whether Schultz has had any taxable income
for the tax periods of December 31, 2001, December 31,
2002, December 31, 2003, and December 31, 2004.
Through its investigation, revenue officer Terry Cox,
discovered that the We The People Foundation’s
website invites visitors to make a donation to the

App. 91
IV. APPPLICABLE LEGAL STANDARDS
A. Motion to Dismiss
To survive a motion to dismiss, “a complaint must
provide ‘enough facts to state a claim to relief that is
plausible on its face.’ ” Mayor & City Council of Balt. v.
Citigroup, Inc., 709 F.3d 129,135 (2d Cir. 2013) (quot­
ing Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). The plaintiff must provide factual allegations
sufficient “to raise a right to relief above the specula­
tive level.” Id. (quoting Bell, 550 U.S. at 555). The Court
must accept as true all factual allegations in the com­
plaint and draw all reasonable inferences in the plain­
tiff’s favor. See E.E.O.C. v. PortAuth. ofN.Y. & N.J., 768
F.3d 247,253 (2d Cir. 2014) (citing ATSI Commc’ns, Inc.
organization via credit card to PayPal or by mail di­
rectly to the We the People Foundation. The address
given for the We The People Foundation is Schultz’s
home address. The website also contains an on-line
store where products can be purchased through Pay­
Pal. One of the products sold over the website is the
“Tax Termination Package,” which is offered for sale
for 539.95. The product is described as “Bob Schulz,
Chairman of the We The People Foundation, stopped
paying income taxes and filing returns. These are the
materials he sent to the IRS. Make sure to get a copy
for your personal records.” Cox has also learned that
the We The People Foundation filed IRS Form 990 for
the years ending December 31, 2001, December 31,
2002, and December 31, 2003 and the returns indicate
that the organization showed considerable revenue for
each year.
Schulz v. United States, No. 8:05CV530, 2006 WL 1788194, at *1,
2006 U.S. Dist. LEXIS 43175, at *2 (D. Neb. June 26,2006) aff’d,
240 F. App’x 167 (8th Cir. 2007).

App. 92
v. Shaar Fund, Ltd., 493 F.3d 87, 98 (2d Cir. 2007)).
However, “the tenet that a court must accept as true
all of the allegations contained in a complaint is inap­
plicable to legal conclusions.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). A complaint that has been filed pro se
“must be construed liberally with ‘special solicitude’
and interpreted to raise the strongest claims that it
suggests.” Hogan v. Fischer, 738 F.3d 509, 515 (2d Cir.
2013) (quoting Hill v. Curcione, 657 F.3d 116, 122 (2d
Cir. 2011)). “Nonetheless, a pro se complaint must state
a plausible claim for relief.” Id.
B. Summary Judgment
Under Federal Rule of Civil Procedure 56(a), sum­
mary judgment may be granted only if all the submis­
sions taken together “show that there is no genuine
issue as to any material fact and that the moving party
is entitled to judgment as a matter of law.” Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986); see also An­
derson v. Liberty Lobby, Inc., 477 U.S. 242, 247-48
(1986). The moving party bears the initial burden of
demonstrating “the absence of a genuine issue of ma­
terial fact.” Celotex, 477 U.S. at 323. A fact is “material”
if it “might affect the outcome of the suit under the gov­
erning law,” and is genuinely in dispute “if the evidence
is such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson, All U.S. at 248; see
also Jeffreys v. City of New York, 426 F.3d 549, 553 (2d
Cir. 2005) (citing Anderson). If the moving party meets
this burden, the nonmoving party must “set out spe­
cific facts showing a genuine issue for trial.” Anderson,

App. 93
477 U.S. at 248, 250; see also Celotex, 477 U.S. at 32324; Wright v. Goord, 554 F.3d 255, 266 (2d Cir. 2009).
“When ruling on a summary judgment motion, the
district court must construe the facts in the light most
favorable to the non-moving party and must resolve
all ambiguities and draw all reasonable inferences
against the movant.” Dallas Aerospace, Inc. v. CIS Air
Corp., 352 F.3d 775, 780 (2d Cir. 2003).
V.

THE UNITED STATES’ MOTION TO DIS­
MISS

The United States seeks to dismiss: 1) “Count C”
of the Amended Complaint; and 2) the IRS and Com­
missioner Koskinen as defendants. (Dkt. No. 11).
A. “Count C” of the Amended Complaint
In paragraph 71 of the Amended Complaint, under
the heading “C. Statute of Limitations and/or Laches
Prevents Imposition of the Penalty,” Schulz alleges the
following:
Although some courts have held no statute of
limitations applies in the case of Section 6700,
the issue has not been tested in Schulz’s cir­
cuit. Further, if the Court concludes that no
limitations period applies, Schulz believes
the doctrine of laches would apply. The gov­
ernment was aware of the complained of ac­
tivity in 2003 and actually filed a lawsuit in
2007. Waiting until 2015 to assert the penalty
was dilatory and prejudicial against Schulz.

App. 94
Various circuits have indicated that in egre­
gious cases and in cases in which there is no
statute of limitations, the doctrine of laches
applies, even against the federal government.
(Dkt. No. 8, f 71, pp. 17-18) (citing various cases). The
United States argues that these allegations are insuf­
ficient to state a claim. (Dkt. No. 11-1, p. 5). Specifically,
the United States contends that Count C should be dis­
missed “because there is no statute of limitations for
the assessment of Section 6700 penalties and the
United States is not subject to the doctrine of laches as
a matter of law.” (Id.). The Court agrees: there is no
applicable statute of limitations here, and the United
States is not bound by laches where, as here, it seeks
to enforce its sovereign rights by assessing and collect­
ing taxes. Therefore, Schulz’s claim that the IRS is
time-barred from assessing penalties under § 6700
must be dismissed. See In re MDL-731 Tax Refund
Litig. of Organizers and Promoters oflnv. Plans Involv­
ing Book Props. Leasing, 989 F.2d 1290, 1300 n.2 (2d
Cir. 1993) (“No statute of limitation applies to the gov­
ernment’s assessment of a Section 6700 penalty.”);
Capozzi v. United States., 980 F.2d 872, 875 (2d Cir.
1992) (“The absence of a limitations period means that
the IRS may assess penalties under IRC § 6700 many
years after the alleged misconduct occurred.”); United
States v. Summerlin, 310 U.S. 414, 416 (1940) (“It is
well settled that the United States is not bound by
state statutes of limitation or subject to the defense of
[aches in enforcing its rights.”); Hatchett v. United
States, 330 F.3d 875, 887 (6th Cir. 2003) (“there is no
precedent holding that the Government is subject to its

App. 95
own laches in tax collection actions”); Taylor v. C.I.R.,
43 F.3d 1483 (10th Cir. 1994) (“laches does not provide
any defense to the IRS’ enforcement of tax claims”);
Dial v. Commissioner, 968 F.2d 898,904 (9th Cir. 1992)
(“laches is not a defense to the United States’ enforce­
ment of tax claims”); United States v. Alfano, 34
F. Supp. 2d 827, 835 (E.D.N.Y. 1999) (“The United
States acts in its sovereign capacity when it brings suit
to set aside a fraudulent conveyance or to enforce a tax
hen. When acting in such capacity, the Government is
not bound by state statutes of limitations or subject to
the defense of laches.”).6
6 Schultz cites to Sage v. United States, 908 F.2d 18, 25 (5th
Cir. 1990), where the Fifth Circuit noted in dicta that the doctrine
of laches is “the only curb on IRS penalty-assessment power un­
der Section 6700.” (Dkt. No. 8, p. 18). Notably, however, a more
recent Fifth Circuit panel held that laches did not apply in a tax
case, stating that laches “may not be asserted against the United
States when it is acting in its sovereign capacity to enforce a pub­
lic right or protect the public interest.” Fein v. United States (In
re Fein), 22 F.3d 631, 634 (5th Cir. 1994) (quoting United States
v. Popovich, 820 F.2d 134,136 (5th Cir. 1987)).
Schulz also cites Cayuga Indian Nation ofN. Y. v. Pataki, 413
F.3d 266, 279 (2d Cir. 2005) in support of his claim that laches
applies to the United States and bars the belated tax assessment
penalty in this case. (Dkt. No. 8, ^ 71). However, that case is in­
apposite: laches applied to the United States because, among
other reasons, the government intervened to vindicate the inter­
est of the Tribe, not to enforce its own sovereign rights. 413 F.3d
at 279. Here, the United States seeks to enforce its sovereign
rights by assessing and collecting taxes. See P. R. Co. v. Maguire,
87 U.S. 36, 37 (1873) (“The right of taxation is a sovereign right,
and presumptively belongs to the State in regard to every species
of property and to an unlimited extent.”). Moreover, the Second
Circuit expressly declined “to set forth broad guidelines for when
the doctrine might apply.” Cayuga Indian Nation of N.Y., 413

App. 96
B. The IRS and Commissioner Koskinen As
Defendants
The United States argues that the IRS and Com­
missioner Koskinen are immune from suit and should
be dismissed as defendants. (Dkt. No. 11-1). In re­
sponse, Schulz states that “[t]he Commissioner is not
meant to be a party, the Agency is.” (Dkt. No. 16, p. 11).
However, both Commissioner Koskinen and the IRS
are indeed immune from suit, and therefore, must be
dismissed as defendants.7 See Roberts v. I.R.S., 297 F.
App’x 63, 65 (2d Cir. 2008)(concluding that IRS em­
ployees, “acting in their official capacities, are immune
F.3d at 278. The Seventh Circuit case cited by Schulz is similarly
distinguishable. See Martin v. Consultants & Administrators,
Inc., 966 F.2d 1078, 1090 (7th Cir. 1992) (noting an exception to
the “general rule” that “the United States is not subject to the
equitable defense of laches in enforcing its rights,” where the
Equal Employment Opportunity Commission asserts the rights of
individual claimants).
7 Schulz contends that the IRS is a proper party because he
characterizes his suit as a “declaratory judgment action against
the IRS as an agency of the United States to determine the liabil­
ity for the penalty in the first place.” (Dkt. No. 16, p. 10). However,
by challenging the tax penalty assessment, Schulz seeks to re­
strain the government from collecting the money allegedly owed,
and thus the real party in interest remains the United States. See
Dugan v. Rank, 372 U.S. 609, 620 (1963) (“A suit is against the
sovereign if the judgment sought would expend itself on the public
treasury or domain, or interfere with the public administration,
or if the effect of the judgment would be to restrain the Govern­
ment from acting, or to compel it to act.”) (internal quotation and
citation omitted); see also Posey v. U.S. Dept. ofTreas. I.R.S., 156
B.R. 910, 917 (W.D.N.Y. 1993) (suits against IRS “are deemed
actions against the United States”); Frasier v. Hegeman, 607
F. Supp. 318, 322 (N.D.N.Y. 1985) (holding that suit against IRS
officer is one against the United States).

App. 97
from suit under the doctrine of sovereign immunity”);
Blackmar v. Guerre, 324 U.S. 512, 515 (1952) (holding
that Congress must give express authorization for an
agency to be sued in its own name); Liffiton v. Keuker,
850 F.2d 73, 77 (2d Cir. 1988) (“It is well-settled that
the United States is immune from suit except where
congress, by specific statute, has waived sovereign im­
munity; as to the I.R.S., no such waiver has been en­
acted for claims such as these.”) (internal citation
omitted); Greene v. I.R.S., No. 1:08CV0280LEKDRH,
2008 WL 5378120, at *3, 2008 U.S. Dist. LEXIS
103986, at *8 (N.D.N.Y. Dec. 23, 2008) (“No suit may
proceed against the IRS either for a refund of tax al­
legedly improperly collected or for monetary or injunc­
tive relief because Congress has not authorized suit
against the agency in its own name”) aff’d, 348 F.
App’x 625 (2d Cir. 2009); Celauro v. U.S. I.R.S., 411
F. Supp. 2d 257, 268 (E.D.N.Y. 2006) (“Congress has
not specifically authorized suit against the IRS. There­
fore, it is not a suable entity.”), aff’d sub nom. Celauro
v. U.S., 214 F. App’x 95 (2d Cir. 2007).
VL SCHULZ’S CROSS-MOTION FOR SUMMARY
JUDGMENT
Schulz seeks summary judgment on the grounds
that “[t]he fact that Schulz earned no income from the
described activity [promoting an abusive tax shelter]
cannot be genuinely disputed, entitling Schulz to judg­
ment as a matter of law.” (Dkt. No. 16, p. 11). In oppo­
sition, the United States argues that Schulz’s motion
should be denied for two reasons: “(1) the motion is

i

App. 98
premature under Fed. R. Civ. R 56(d) because discovery
in this case has not yet begun and the United States
has not yet had the opportunity to take discovery on
the issue of Schulz’s ‘gross income derived (or to be de­
rived)’ from his promotion of his illegal tax shelter; and
(2) the motion does not comply with Local Rule of Prac­
tice 7.1 because it does not contain a ‘Statement of
Material Facts’ with numbered paragraphs and cita­
tions to record evidence making it impossible for the
Government to respond.” (Dkt. No. 18, pp. 3-4).
A. Schulz’s Motion Is Premature
The crux of Schulz’s motion is his claim that he
derived no income from the abusive tax shelter en­
joined in the 2007 case. Under § 6700 of the Internal
Revenue Code, any person who promotes an abusive
tax shelter “shall pay, with respect to each activity de­
scribed in paragraph (1), a penalty equal to the $1,000
or, if the person establishes that it is lesser, 100 percent
of the gross income derived (or to be derived) by such
person from such activity.” 26 U.S.C. § 6700. Schulz
contends that the record shows that he earned no in­
come, citing his affidavit and a series of documents an­
nexed thereto (Dkt. No. 16-1), as well as the exhibits
annexed to the Complaint. (Dkt. Nos. 1-3 through 118). Schulz further contends that “Defendants have
always known Schulz derived no income from the ac­
tivity, especially in 2003, the year of the alleged promo­
tion of an abusive tax shelter.” (Dkt. No. 16, p. 11). In
response, the United States argues that Schulz’s mo­
tion is premature under Rule 56(d) of the Federal

App. 99
Rules of Civil Procedure because there has not yet
been any discovery in this case, and it intends to seek
discovery “on a number of topics that will create a gen­
uine issue of material fact on the issue of Schulz’s gross
income.” (Dkt. No. 18, p. 8).
As an initial matter, summary judgment is appro­
priate “[o]nly in the rarest of cases” where the non­
moving party “has not been afforded the opportunity to
conduct discovery.” Heltstrom v. U.S. Dep’t of Veterans
Affairs, 201 F.3d 94,97 (2d Cir. 2000). In general, “[t]he
nonmoving party must have ‘had the opportunity to
discover information that is essential to his opposition’
to the motion for summary judgment.” Trebor Sports­
wear Co., Inc. v. The Ltd. Stores, Inc., 86.5 F.2d 506, 511
(2d Cir. 1989) (quoting Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 250 n. 5 (1986)). For this reason, under
Rule 56(d), “ [i] f a nonmovant shows by affidavit or dec­
laration that, for specified reasons, it cannot present
facts essential to justify its opposition, the court may:
(1) defer considering the motion or deny it; (2) allow
time to obtain affidavits or declarations or to take dis­
covery; or (3) issue any other appropriate order.” Fed.
R. Civ. P. 56(d); see also Celotex Corp., 477 U.S. at 326
(“Any potential problem with such premature motions
can be adequately dealt with under Rule 56(f) (now
Rule 56(d)), which allows a summary judgment motion
to be denied, or the hearing on the motion to be contin­
ued, if the nonmoving party has not had an oppor­
tunity to make full discovery”). Thus, “a party resisting
summary judgment on the ground that it needs dis­
covery in order to defeat the motion must submit an

App. 100
affidavit showing (1) what facts are sought [to resist
the motion] and how they are to be obtained, (2) how
those facts are reasonably expected to create a genuine
issue of material fact, (3) what effort affiant has made
to obtain them, and (4) why the affiant was unsuccess­
ful in those efforts.” Miller v. Wolpoff & Abramson,
L.L.P., 321 F.3d 292,303 (2d Cir. 2003) (internal quota­
tions and citation omitted).
Here, the United States has submitted a declara­
tion in compliance with Rule 56(d), explaining that the
information it seeks through discovery would create a
genuine issue of material fact for trial on the issue of
Schulz’s income from the abusive tax shelter. Specifi­
cally, the United States intends to seek discovery on:
(1) the income “to be derived” from the promo­
tion of the tax shelter; (2) the income actually
derived from the promotion of the tax shelter
and where that income went; (3) the income
Schulz’s organizations derived from the pro­
motion of the tax shelter and where that in­
come went; and (4) whether the income
derived by Schulz’s organizations can be im­
puted to him personally.
(Dkt. No. 18-1, f 10). Since discovery has not begun in
this case, the United States has not yet had the op­
portunity to discover this information, which may cre­
ate a genuine issue of material fact for trial. Schulz
argues that the record of the 2007 case “speaks for it­
self - that is, Defendants decided there was no reason
to take advantage of their opportunity for discovery,
given the results of their investigation and ‘discovery’

*

App. 101
in 2005-2006.” (Dkt. No. 20-1, p. 10). However, in the
2007 case, the United States did not seek a tax penalty,
and Schulz’s income derived from the abusive tax shel­
ter was not at issue. Rather, the object of that action
was to enjoin illegal activity, not to measure and assess
a tax penalty. Moreover, Judge McAvoy specifically
noted that there were “some questions of fact concern­
ing whether Defendants sold their materials,” Schulz,
529 F. Supp. 2d at 348, and there was some evidence
“that Defendants used the materials to solicit dona­
tions to the organizations and to encourage people to
join their organization for a fee.” Id., at 348 n. 3. Al­
though Schulz has submitted voluminous records re­
lated to the 2007 case in support of his motion, they
are not conclusive at this early stage.8
In sum, this is not the rare case where summary
judgment is appropriate before discovery has begun,
and the United States has made a sufficient showing
that it requires discovery to oppose Schulz’s motion.
Therefore, Schulz’s motion is denied, without prejudice
to renew at the close of discovery.8 See In re Dana
8 Schulz himself suggests that the records are open to inter­
pretation, stating in the Amended Complaint that: “the evidence
shows that some (but not all) of the people who requested a copy
of the Blue Folder be mailed to them voluntarily donated up to
$20 to W(e) T[he] P[eople]. Even if WTP’s receipts are somehow
attributed to Schulz (which they should not be), the total income
amounts to no more than $20 per ‘activity,’ which would total less
than $4500.” (Dkt. No. 8,1 64).
9 Because Schulz’s cross-motion for summary judgment is de­
nied as premature under Rule 56(d), the Court need not reach the
United States’ argument that it should also be denied because it
fails to comply with Local Rule of Practice 7.1 by not containing a

App. 102
Corp., 574 F.3d 129,149 (2d Cir. 2009) (“a party against
which summary judgment is sought must be afforded
a reasonable opportunity to elicit information within
the control of his adversaries”) (internal quotations
and citation omitted); Schering Corp. v. Home Ins. Co.,
712 F.2d 4, 10 (2d Cir. 1983) (“summary judgment
should not be granted while the party opposing judg­
ment timely seeks discovery of potentially favorable
information”); Cusamano v. Alexander, 691 F. Supp. 2d
312, 321 (N.D.N.Y. 2009) (“Plaintiff’s cross-motion for
summary judgment is premature because defendants
have yet to file an answer to the amended complaint.”);
G-I Holdings, Inc. v. Baron & Budd, 213 F.R.D. 146,
146-47 (S.D.N.Y. 2003) (“the summary judgment

Statement of Material Facts. (Dkt. No. 18, p. 9). However, should
Schulz renew his motion after discovery, he must comply with Lo­
cal Rule 7.1(a)(3), which states:
Any motion for summary judgment shall contain a
Statement of Material Facts. The Statement of Mate­
rial Facts shall set forth, in numbered paragraphs,
each material fact about which the moving party con­
tends there exists no genuine issue. Each fact listed
shall set forth a specific citation to the record where the
fact is established. The record for purposes of the State­
ment of Material Facts includes the pleadings, deposi­
tions, answers to interrogatories, admissions and
affidavits. It does not, however, include attorney’s affi­
davits. Failure of the moving party to submit an accu­
rate and complete Statement of Material Facts shall
result in a denial of the motion.
N.D.N.Y. L.R. 7.1(a)(3).

App. 103
motion is now denied as premature, having been filed
prior to close of discovery”).10
VII.

SCHULZ’S ORDER TO SHOW CAUSE

Schulz has also filed an “Order to Show Cause”
seeking 1) the removal of the federal tax lien and 2) to
expedite determination of his cross-motion for sum­
mary judgment. (Dkt. No. 24). Schulz’s first request
was addressed in the Court’s Memorandum-Decision
& Order dated February 11, 2016 (Dkt. No. 23), and is
denied for the reasons stated therein. Given the
Court’s ruling on Schulz’s cross-motion for summary
judgment, the second request is denied as moot.
VIII. CONCLUSION
It is therefore
ORDERED that the Government’s Partial Mo­
tion to Dismiss (Dkt. No. 11) is GRANTED; and it is
further
ORDERED that Count C (Paragraph 71) of the
Amended Complaint is DISMISSED; and it is further
ORDERED that the IRS and the Commissioner
of the IRS, John Koskinen, are DISMISSED as de­
fendants in this action; and it is further

10 Plaintiff may request an expedited discovery schedule at
the Rule 16 Conference with Magistrate Judge Hummel.

App. 104
ORDERED that Plaintiffs Cross-Motion for Sum­
mary Judgment (Dkt. No. 16) is DENIED; and it is fur­
ther
ORDERED that Plaintiffs Order to Show Cause
(Dkt. No. 24) is DENIED; and it is further
ORDERED that the Clerk provide a copy of this
Memorandum-Decision and Order to the parties.
IT IS SO ORDERED.
May 6, 2016
Syracuse, New York
/s/ Brenda K. Sannes
Brenda K. Sannes
U.S. District Judge

App. 105
APPENDIX K
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
v.
UNITED STATES, INTERNAL
REVENUE SERVICE, JOHN
KOSKINEN, Commissioner,

l:15-cv-01299
(BKS/CFH)

Defendants.

APPEARANCES:
Plaintiff Pro Se
Robert L. Schulz
Queensbury, NY 12804
For Defendant United States:
Gregory S. Seador
U.S. Department of Justice - Tax Division
Ben Franklin Station
P.O. Box 7238
Washington, DC 20044
Hon. Brenda K. Sannes, United States District
Judge:
MEMORANDUM-DECISION AND ORDER
(Filed Feb. 11, 2016)
INTRODUCTION
On November 2, 2015, Plaintiff Robert L. Schulz,
acting pro se, filed a Complaint against Defendants

App. 106
United States, the Internal Revenue Service (“IRS”),
and John Koskinen as Commissioner, under 26 U.S.C.
§ 6703(c)(2), alleging that he received an erroneous tax
assessment penalty from the IRS in the amount of
$225,000 related to his promotion of an abusive tax
shelter. (Dkt. No. 1). On January 4, 2016, Schulz filed
an Amended Complaint, further alleging that, on No­
vember 24, 2015, the IRS filed a notice of federal tax
lien against his property for the $224,000 unpaid bal­
ance of the assessment. (Dkt. No. 8, fl 48). Schulz now
moves for a preliminary injunction to prohibit the De­
fendants “from engaging in any lien or levy collection
activity” against him and to remove the notice of fed­
eral tax lien.1 (Dkt. Nos. 9,13).

BACKGROUND
In 2007, the United States brought a civil action
against Schulz seeking to enjoin him (and two corpo­
rate defendants he founded) from promoting an abu­
sive tax shelter pursuant to § 6700 of the Internal
Revenue Code, 26 U.S.C. § 6700. United States u.
Schulz, 529 F. Supp. 2d 341 (N.D.N.Y. 2007) aff’d, 517
F3d 606 (2d Cir. 2008) and enforcement granted, No.
l:07-CV-0352,2008 WL 2626567,2008 U.S. Dist. LEXIS
57948 (N.D.N.Y. Apr. 28, 2008). The action related to
Schulz’s distribution of a “Tax Termination Package” in
2003 to help individuals to stop withholding, paying,
1 Schulz initially requested this relief by way of an Order to
Show Cause (Dkt. No. 9), which the Court construed as a motion
for a preliminary injunction, and the Court directed the parties to
file appropriate briefing. (Dkt. No. 12).

App. 107
and filing federal taxes. Id. United States District
Judge Thomas J. McAvoy found that. Schulz was pro­
moting an abusive tax shelter, and enjoined him from
further doing so. Id.
On March 9, 2015, Schulz received a tax assess­
ment penalty from the IRS in the amount of $225,000
for promoting an abusive tax shelter. (Dkt. No. 13-1,
p. 6). Pursuant to § 6700, the IRS calculated the pen­
alty by multiplying the number of Tax Termination
Packages that Schulz mailed to individuals in 2003
by $1,000. (Dkt. No. 15-2, M 3-5). On April 6, 2015,
Schulz appealed the penalty to the IRS, arguing that
he was not subject to any statutory penalty under
§ 6700(a)(2)(B) because he did not receive any income
from the alleged tax shelter.2 (Dkt. No. 13-1, M 8-9).
Schulz also paid a partial amount of the penalty and
requested a refund at that time. (Id., 1 8). On Novem­
ber 2,2015, “having received no word from the IRS re­
garding its resolution” of his appeal and refund, Schulz
commenced this action to determine his tax penalty li­
ability pursuant to § 6703(c)(2). (Id., U 12).
DISCUSSION
Schulz seeks a preliminary injunction prohibiting
the Defendants “from engaging in any lien or levy
2 Under § 6700, any person who promotes an abusive tax
shelter “shall pay, with respect to each activity described in par­
agraph (1), a penalty equal to the $1,000 or, if the person estab­
lishes that it is lesser, 100 percent of the gross income derived (or
to be derived) by such person from such activity.” 26 U.S.C.
§ 6700.

App. 108
collection activity” against him and removing the no­
tice of federal tax lien. (Dkt. Nos. 9, 13). Because this
relief amounts to a restraint on the assessment or col­
lection of taxes, Schulz must show that his request is
not barred by the Anti-Injunction Act, 26 U.S.C.
§ 7421.3 The Anti-Injunction Act states that, except as
provided in certain statutory exceptions, “no suit for
the purpose of restraining the assessment or collection
of any tax shall be maintained in any court by any per­
son, whether or not such person is the person against
whom such tax was assessed.” 26 U.S.C. § 7421(a). “The
purpose of the Act is to protect the Government’s need
to assess and collect taxes as expeditiously as possible
with a minimum of preenforcement judicial interfer­
ence, and to require that the legal right to the disputed
sums be determined in a suit for refund.” Randell v.
United States, 64 F.3d 101,106 (2d Cir. 1995) (internal
quotations and citations omitted).
Schulz argues that Defendants cannot impose a
lien on his property until the final resolution of his case
challenging the underlying tax assessment penalty,
citing § 6703(c)(1), which provides an exception to the
Anti-Injunction Act. (Dkt. No. 13-2, p. 4).

3 Generally speaking, to obtain preliminary injunctive relief
against government action taken in the public interest pursuant
to a statutory or regulatory scheme, a plaintiff must show irrepa­
rable harm in the absence of an injunction and a likelihood of suc­
cess on the merits. Fifth Ave. Presbyterian Church v. City of New
York, 293 F.3d 570, 573-74 (2d Cir. 2002).

App. 109
Section 6703(c)(1) of the Internal Revenue Code
states:
If, within 30 days after the day on which no­
tice and demand of any penalty under section
6700 or 6701 is made against any person, such
person pays an amount which is not less than
15 percent of the amount of such penalty and .
files a claim for refund of the amount so paid,
no levy or proceeding in court for the collec­
tion of the remainder of such penalty shall be
made, begun, or prosecuted until the final res­
olution of a proceeding begun as provided in
paragraph (2).
Notwithstanding the provisions of section
7421(a), the beginning of such proceeding or
levy during the time such prohibition is in
force may be enjoined by a proceeding in the
proper court. Nothing in this paragraph shall
be construed to prohibit any counterclaim for
the remainder of such penalty in a proceeding
begun as provided in paragraph (2).
26 U.S.C. § 6703(c)(1). Schulz argues that Defendants
“began a levy/collection action against Plaintiff by
placing a lien on Plaintiff’s property. The lien is a be­
ginning and part and parcel of an IRS collection/levy
action against Plaintiff, prohibited by IRC 6703(c).”
(Dkt. No. 13-2, p. 4). In response, the United States ar­
gues that the federal tax lien is not a “levy” or a “pro­
ceeding in court” under § 6703(c)(1), and therefore,
Schulz’s request for relief is barred by the Anti-Injunc­
tion Act. (Dkt. No. 15, pp. 6-13).

App. 110
Under the limited exception in § 6703(c)(1), an in­
dividual who brings a suit in district court to deter­
mine his tax penalty liability may enjoin any ‘levy or
proceeding in court for the collection of the remainder
of the penalty” while his case is pending. However, a
lien is neither a “levy” nor a “proceeding in court,” and
therefore, Schulz’s request for relief does not fall
within the statutory exception.4 See United States v.
Na’tl Bank of Commerce, 472 U.S. 713, 720 (1985) (dis­
tinguishing between federal tax lien, lien-foreclosure
suit, and administrative levy); Belloffv. C.I.R., 996 F.2d
607,616 (2d Cir. 1993) (strictly construing § 6703(c)(1)
to give plain meaning to its terms); Nielsen v. United
States, No. 03-88-3164-H,51991 U.S. Dist. LEXIS 6811,
at *3-5 (N.D. Tex. Feb. 22,1991) (finding that a tax lien
is not the beginning of a proceeding in court for collec­
tion of penalty or the equivalent of a levy under
§ 6703(c)(1)), report-recommendation adopted, 1991
U.S. Dist. LEXIS 4279 (N.D. Tex. Mar. 20,1991).
Schulz also argues that his request for relief falls
within a judicially created exception to the AntiInjunction Act, articulated by the Supreme Court in
Enochs v. Williams Packing & Navigation Co., 370 U.S.
1 (1962). “There the Court announced a two-part test
permitting an injunction suit to be maintained ‘if it is
4 The lien functions to give the government a security inter­
est in Schulz’s property, so that he may be able to satisfy the tax
assessment penalty pending a final determination. See Andrew
Crispo Gallery, Inc. v. C.I.R., 16 F.3d 1336, 1345 (2d Cir. 1994)
(noting that a lien “is simply a charge upon property as security
for the payment of a debt”).
5 Westlaw citation unavailable.

App. Ill
clear that under no circumstances could the Govern­
ment ultimately prevail,’ and if equity jurisdiction oth­
erwise exists.” Laino v. United States, 633 F.2d 626,629
(2d Cir. 1980) (quoting Williams Packing, 370 U.S. at
7). The United States argues that Schulz fails to satisfy
either part of the test. (Dkt. No. 15, pp. 9-10). Schulz
contends that the government cannot ultimately pre­
vail because “[t]he evidence before the Court shows
Schulz did not derive any gross income from the pro­
hibited activity.” (Dkt. No. 19, p. 17). However, “Mt is
well established that the IRS’s tax calculations (includ­
ing calculations of interest and penalties) are pre­
sumptively valid and create a prima facie case of
liability,” which the taxpayer must overcome. United
States v. Chrein, 368 F. Supp. 2d 278, 282 (S.D.N.Y.
2005) aff’d, 274 F. App’x 56 (2d Cir. 2008); see also Hauf
v. I.R.S., 968 F. Supp. 78,82 (N.D.N.Y. 1997). Moreover,
it not clear in this case that the government’s tax as­
sessment penalty is unfounded. Judge McAvoy previ­
ously determined that Schulz engaged in conduct
subject to penalty under § 6700. See Schulz, 529
F. Supp. 2d at 348. Although Schulz has submitted vo­
luminous records in support of his contention that he
received no income, (see exhibits attached to the Com­
plaint, Dkt. Nos. 1-3 through 1-18), he has failed to
show that “under no circumstances could the Govern­
ment ultimately prevail.” Laino, 633 F.2d at 629.6

6 Schulz himself suggests that the records are open to inter­
pretation, stating in the Amended Complaint that “at most” the
evidence shows that some people who requested the Tax Termi­
nation Package “donated up to $20” to one of his organizations.

App. 112
Schulz has also failed to show that equity jurisdic­
tion exists in this case, i.e. that he lacks an adequate
legal remedy and faces irreparable harm.7 Williams
Packing, 370 U.S. at 6-7; Gallo v. U.S., Dept. ofTreas.,
I.R.S., 950 F. Supp. 1246,1249 (S.D.N.Y. 1997) (“To es­
tablish equity jurisdiction, the plaintiff must demon­
strate that he will suffer irreparable injury or that he
otherwise lacks an adequate remedy at law.”). First,
Schulz asserts that “[plrimarily, this is a declaratory
judgment action, authorized by 6703(c)(2), seeking a
determination of liability for a penalty under 6700(a).”
(Dkt. No. 19, p. 17). Thus, Schulz has an adequate legal
remedy under § 6703(c)(2) to determine the ultimate
issue in this case—his tax penalty liability. Second, the
financial hardship claimed by Schulz is insufficient to
establish irreparable harm. Schulz argues that he
faces irreparable harm because he is “unable to pay his
property tax and pay his household expenses” due to
the government’s tax penalty assessment and federal
tax lien because the lien “is preventing Schulz from
proceeding with the sale of a parcel of land that is part
of his homestead.” (Dkt. No. 13-2, p. 6-7). In his sup­
porting affidavit, Schulz states that he and his wife
rely entirely on the sale of their land and their monthly
social security payments (totaling less than $30,000
(Dkt. No. 8, 1 64). Schulz argues that this money should not be
attributed as income to him. (Id.).
1 In general, “[a] showing of irreparable harm is the single
most important prerequisite for the issuance of a preliminary
injunction.” Faiveley Transport Malmo AB v. Wabtec Corp., 559
F.3d 110,118 (2d Cir. 2009) (internal quotation and citation omit­
ted).

App. 113
per year) for the money needed to pay their property
taxes and meet their living and household expenses
and have no other source of income. (Dkt. No. 13-1,
SI 21). Specifically, Schulz states that, due to the lien on
his property, he had to borrow $5,600 to pay his school
taxes and cannot pay his current property tax bill of
$7,183.91. (Dkt. No. 9, M 14-15). Schulz further states
as follows:
If the property tax is not paid by January 31,
2016 an irreparable penalty is added, and if
not paid by February 28, 2016 an additional
irreparable penalty is added, and if not paid
by March 31, 2016 an additional irreparable
penalty is added and the amount due is then
added to the School tax due in September,
2016, and if not paid the County seizes the
property and sells it at public auction.
(Dkt. No. 13-1, f 22). Finally, Schulz states that
“[ujnless the stay is granted, the harm to Schulz will
be irreparable: irreparable monetary penalties will
continue to be added to his property tax bill which the
lien prevents him from paying.8 (Id., % 24). However,
it is well-established that economic injury alone does
not constitute irreparable harm for purposes of equity
jurisdiction. Williams Packing, 360 U.S. at 6; accord
Gallo, 950 F. Supp. at 1249; see also Griffin v. C.I.R.,
108 F.3d 1369 (2d Cir. 1997) (finding no equity jurisdic­
tion based on purely financial harm, which is compen­
sable at law). Thus, Schulz has not demonstrated
Schulz indicates that the penalty is $136. (Dkt. No. 19, p.
8).

App. 114
irreparable harm based on his alleged inability to pay
taxes and expenses and incurring of financial penal­
ties.
Moreover, the alleged possibility that Schulz may
lose his property is too remote and speculative to con­
stitute irreparable harm. Schulz appears to suggest
that if he does not pay school taxes due in September
2016, the County will seize his property and sell it at
auction. However, Schulz does not point to any evi­
dence supporting this possibility, which would appear
unlikely in light of the notice of federal tax lien on file.
(Dkt. No. 13-1, p. 24). Further, such a loss cannot be
considered imminent. See Shapiro v. Cadman Towers,
Inc., 51 F.3d 328, 332 (2d Cir. 1995) (“To establish ir­
reparable harm, the movant must demonstrate an in­
jury that is neither remote nor speculative, but actual
and imminent and that cannot be remedied by an
award of monetary damages.”) (internal quotation and
citation omitted).
In sum, having found that no exception applies to
the Anti-Injunction Act in this case, Schulz’s request
for a preliminary injunction is barred as a matter of
law and must be denied. See Dourlain u. United States,
No. 04-CV-372 (NAM/DEP), 2005 WL 3021858, at *2,
2005 U.S. Dist. LEXIS 24575, at *6 (N.D.N.Y. Sept. 19,
2005) (dismissing complaint seeking removal of federal
tax lien as barred by Anti-Injunction Act); Porto v.
I.R.S., No. 88 CW. 6955 (RWS), 1989 WL 52343, at *1-2,
1989 U.S. Dist. LEXIS 4948, at *4 (S.D.N.Y. May 8,
1989) (denying motion to stay execution of tax lien
“[b]ecause 26 U.S.C. § 7421(a) prohibits stays on the

App. 115
collection of taxes, and because [the plaintiff] does not
fit within 26 U.S.C. § 6703(c)’s exception to the anti-in­
junction statute, given that the IRS has not levied on
any of [the plaintiff’s] property or begun any legal pro­
ceeding to collect the penalty.”); Lynn v. Scanlon, 234
F. Supp. 140, 143 (E.D.N.Y. 1964) (“Since it cannot be
said that the instant case falls within the exception to
the applicability of Section 7421(a) which has been
drawn by the Supreme Court in Enochs v. Williams
Packing & Navigation Co. .. . i.e., that the plaintiff has
no adequate remedy at law and it is clear that under
no circumstances could the Government prevail, the
plaintiff’s motion for summary judgment granting
such an injunction and the removal of the tax lien must
be denied.”).
CONCLUSION
It is therefore
ORDERED that Schulz’s motion (Dkt. Nos. 9,13)
for a preliminary injunction is DENIED; and it is fur­
ther
ORDERED that the Clerk provide a copy of this
Memorandum-Decision and Order to the parties.

App. 116
IT IS SO ORDERED.
February 11, 2016
Syracuse, New York
/s/ Brenda K. Sannes
Brenda K. Sannes
U.S. District Judge

App. 117
APPENDIX L
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term, 2007
(Argued: February 4,2008

Decided: February 22,2008)

Docket No. 07-3729-cv
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
- v.—
ROBERT L. SCHULZ, WE THE PEOPLE FOUNDATION
FOR CONSTITUTIONAL EDUCATION, INC., and
WE THE PEOPLE CONGRESS, INC.,
Defendants-Appellants.
Before NEWMAN, WINTER and
SOTOMAYOR, Circuit Judges.
(Filed Feb. 22, 2008)
Defendants-appellants Robert L. Schulz, We the
People Foundation for Constitutional Education, Inc.,
and We the People Congress, Inc., appeal an August 15,
2007 judgment of the United States District Court for
the Northern District of New York (McAvoy, J.). We af­
firm the district court’s order under 26 U.S.C. § 7408
permanently enjoining defendants from violating 26
U.S.C. §§ 6700 & 6701 based on their distribution of

App. 118
false and misleading materials concerning corporate
obligations to withhold federal taxes on wages.
ARTHUR T. CATTERALL, Attorney, Tax
Division, Department of Justice, Wash­
ington, D.C. (Richard T. Morrison, Acting
Assistant Attorney General, Gilbert S.
Rothenberg, Acting Deputy Assistant At­
torney General, Andrea R. Tebbets, Attor­
ney, Tax Division, Department of Justice,
Washington, D.C., and Glenn T. Suddaby,
United States Attorney for the Northern
District of New York, on the brief), for
Plaintiff-Appellee.
ROBERT L. SHULZ, pro se (Mark Lane, on
the brief), Queensbury, NY, for DefendantsAppellants.
PER CURIAM
Defendants-appellants Robert L. Schulz (“Schulz”),
We the people Congress, Inc., and We the People Foun­
dation for Constitutional Education, Inc. (together
with We the People Congress, the “Corporations”), ap­
peal an August 15,2007 judgment of the United States
District Court for the Northern District of New York
(McAvoy, J.), permanently enjoining defendants from
violating 26 U.S.C. §§ 6700 & 6701 based on their dis­
tribution of false and misleading tax materials con­
cerning corporate obligations to withhold federal taxes
On wages.1 See 26 U.S.C. § 7408 (providing district
1 The tax materials at issue were distributed in a packet
called the “Blue Folder,” which was made available by defendants
both in hard copy and electronically via the internet. The district

App. 119
courts authority to enjoin persons from engaging in
certain “specified conduct” made illegal by the tax laws,
including 26 U.S.C. §§ 6700 & 6701). The district court
also ordered defendants to, inter alia, provide the
names and contact information of the individuals who
have received defendants’ tax materials, and to notify
such recipients of the district court’s decision and or­
der.
Defendants principally argue that the tax materi­
als at issue constitute protected political and/or educa­
tional speech under the First Amendment of the
Constitution. Defendants further argue that their ac­
tions in promoting the materials are otherwise pro­
tected under the First Amendment’s Petition Clause,
on the theory that the government has yet to respond
to defendants’ repeated inquiries as to whether, and on
what basis, any information in the tax materials is
false. Finally, defendants assert that their actions
were, not violative of 26 U.S.C. §§ 6700 or 6701.
We have considered all of defendants’ arguments
and find them to be without merit. We affirm the judg­
ment for substantially the reasons set forth in the dis­
trict court’s decision. See United States v. Schulz,__
F. Supp. 2d _, 2007 U.S. Dist. LEXIS 58271 (N.D.N.Y.
Aug. 9,2007).
We also vacate the stay we previously imposed
with respect to Paragraph C of the injunction, which
court found that the materials included false representations
about the tax laws, as well as instructions and forms to “legally
terminate withholding.”

App. 120
directs defendants to provide to the government the
names and contact information of the individuals who
have received the tax materials.2 We find that Para­
graph C is sufficiently tailored to the legal violations
at issue, see Society for Good Will to Retarded Children,
Inc. v. Cuomo, 737 F.2d 1239,1251 (2d Cir. 1984) (“In­
junctive relief should be narrowly tailored to fit the
specific legal violations.”), and that the district court
did not abuse its discretion in imposing the conditions
specified in that provision, see Ragin v. Harry Mackloive Real Estate Co., 6 F.3d 898, 909 (2d Cir. 1993)
(stating that the scope of an injunction is reviewed for
abuse of discretion). The district court found that de­
fendants’ illegal activities were harming individuals,
who were exposing themselves to criminal liability by
following the defendants’ ill-conceived instructions.
See Schulz, 2007 U.S. Dist. LEXIS 58271, at *23. Re­
quiring defendants to provide the identity and contact
information of the recipients of the tax materials ena­
bles the government to monitor the defendants’ obliga­
tion under the injunction to provide a copy of the
district court’s order to recipients of the tax materials.
Moreover, the district court found that the defendants’
illegal actions were harming the government, which
was not receiving required tax payments and was
forced to expend resources to collect the unpaid taxes.
Id. at * 24. Requiring defendants to provide the iden­
tity and contact information of the recipients of the tax
2 On September 20, 2007, we denied defendants’ motion to
stay the full injunction, and instead granted their motion only
with respect to Paragraph C only.

App. 121
materials enables the government to monitor whether
the recipients of defendants’ materials are violating
the tax laws. Thus, we find no abuse of discretion with
respect to the district court’s imposition of the report­
ing requirements in Paragraph C of the injunction.
Accordingly, we AFFIRM the district court’s judg­
ment and VACATE the partial stay on the district
court’s injunction. Moreover, we DENY defendants’
pending motion requesting that we take judicial notice
of a petition for rehearing of the Supreme Court’s order
denying a writ of certiorari in We the People Founda­
tion, Inc. v. United States, 485 F.3d 140 (D.C. Cir. 2007),
cert, denied,__ S. Ct.___ , 2008 WL 59413 (Jan. 7,
2008), as, consideration of the petition for rehearing in
that case is unnecessary to the disposition in this case.

App. 122
APPENDIX M
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
United States of America
vs.
Robert L. Schulz, et al

JUDGMENT IN A
CIVIL CASE
CASE NO.
l:07-CV-352
(Filed Aug. 15, 2007)

JURY VERDICT. This action came before this
Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.
X

DECISION BY COURT. This action came to
trial or hearing before the Court. The issues
have been tried or heard and a decision has been
rendered.
IT IS ORDERED AND ADJUDGED THAT
PLAINTIFFS MOTION FOR SUMMARY
JUDGMENT IS GRANTED.
IN ACCORDANCE WITH THE HONORABLE
THOMAS J. MCAVOY’S DECISION AND OR­
DER FILED AUGUST 9,2007.

Dated: August 14, 2007

/s/ Lawrence K, Baerman
Clerk of Court
s/ S. Potter
By: Deputy Clerk

